APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Axon Enterprise,
Inc. v. FTC, No. 20-15662 (Jan. 28, 2021) .. App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Axon Enterprise, Inc. v.
FTC, No. 20-15662 (April 15, 2021) .......... App-47
Appendix C
Order, United States District Court for
the District of Arizona, Axon Enterprise,
Inc. v. FTC, No. CV-20-00014-PHX-DWL
(April 8, 2020) ............................................ App-49
Appendix D
Constitutional and Statutory Provisions
Involved...................................................... App-90
U.S. Const. art. II, §1, cl. 1 ................. App-90
U.S. Const. art. II, §2, cl. 2 ................. App-90
28 U.S.C. §1331 ................................... App-90
5 U.S.C. §1202 ..................................... App-91
5 U.S.C. §7521 ..................................... App-92
15 U.S.C. §41 ....................................... App-93
15 U.S.C. §45 ....................................... App-94

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 20-15662
________________
AXON ENTERPRISE, INC., a Delaware corporation,
v.

Plaintiff-Appellant,

FEDERAL TRADE COMMISSION, a federal
administrative agency; JOSEPH J. SIMONS; NOAH
PHILLIPS; ROHIT CHOPRA; REBECCA SLAUGHTER;
CHRISTINE WILSON, in their official capacities as
Commissioners of the Federal Trade Commission,
Defendants-Appellees.
________________
Filed: Jan. 28, 2021
________________
Before: SILER *, LEE, and BUMATAY,
Circuit Judges.
________________
OPINION
________________
LEE, Circuit Judge:
Over the past century, Congress has established
an array of quasi-independent executive agencies that
* The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App-2
enjoy partial insulation from presidential oversight
and wield tremendous enforcement power. Instead of
filing lawsuits in federal court, these agencies can
commence administrative enforcement proceedings
against companies and individuals, and make their
cases before their own administrative law judges
(ALJs). Not surprisingly, ALJs overwhelmingly rule
for their own agencies.
Here, the Federal Trade Commission (FTC)
investigated and filed an administrative complaint
challenging Axon Enterprise, Inc.’s acquisition of a
competitor. The FTC demanded that Axon spin-off its
newly acquired company and provide it with Axon’s
own intellectual property. Axon responded by filing a
lawsuit in federal district court, arguing that the
FTC’s administrative enforcement process violates
Axon’s due process rights and runs afoul of separationof-powers principles.
The narrow question presented here is whether
the district court has jurisdiction to hear Axon’s
constitutional challenge to the FTC’s structure. The
district court dismissed Axon’s complaint, ruling that
the FTC’s statutory scheme requires Axon to raise its
constitutional challenge first in the administrative
proceeding.
We affirm the district court’s dismissal because
the Supreme Court’s Thunder Basin trilogy of cases
mandates that result. The structure of the FTC Act
suggests that Congress impliedly barred jurisdiction
in district court and required parties to move forward
first in the agency proceeding. And because the FTC
statutory scheme ultimately allows Axon to present its
constitutional challenges to a federal court of appeals

App-3
after the administrative proceeding, Axon has not
suffered any cognizable harm. We join every other
circuit that has addressed a similar issue in ruling
that Congress impliedly stripped the district court of
jurisdiction.
FACTUAL BACKGROUND AND
PROCEDURAL HISTORY

Axon makes, among other things, body cameras
for use by law enforcement. In May 2018, it acquired
a competitor body camera company called Vievu LLC.
About a month later, the FTC sent Axon a letter
stating that the Vievu acquisition raised antitrust
concerns. For about eighteen months, Axon cooperated
with the FTC’s investigation. In December 2019, the
FTC demanded that Axon turn Vievu into a “clone” of
Axon using Axon’s intellectual property. If Axon
refused this settlement demand, the FTC threatened
to initiate an administrative proceeding to obtain this
relief.
In response, Axon filed this action in the district
court on January 3, 2020. 1 Axon made three
substantive claims: (1) the FTC’s administrative
proceeding violates Axon’s Fifth Amendment due
process rights, (2) the FTC’s structure violates Article
II by providing improper insulation from the
president, and (3) Axon’s acquisition of Vievu did not
violate antitrust law.
Axon argued that the FTC’s administrative
enforcement scheme violates its due process rights
because the agency effectively acts as the prosecutor,
1 The FTC filed an administrative complaint challenging the
Vievu acquisition later that same day.

App-4
judge, and jury, and that it is entitled to a trial in
district court. Axon notes that the FTC has not lost an
administrative proceeding trial in the past quartercentury. It also maintains that the FTC’s ALJs
impermissibly enjoy dual-layer insulation from
presidential control because only the FTC
commissioners can remove them for cause and the
commissioners, in turn, can be removed only for cause
by the President.
Axon later filed a motion for preliminary
injunction. The FTC opposed the preliminary
injunction motion, relying mainly on jurisdictional
grounds. The district court agreed with the FTC and
dismissed Axon’s complaint without prejudice due to a
lack of subject matter jurisdiction. It determined that
Congress impliedly precluded jurisdiction over Axon’s
claims when it enacted the FTC administrative review
scheme.
Axon timely filed its notice of appeal to this court.
STANDARD OF REVIEW
We review de novo a district court’s determination
of subject matter jurisdiction. See Gingery v. City of
Glendale, 831 F.3d 1222, 1226 (9th Cir. 2016).
DISCUSSION

The FTC Act does not expressly state that a party
cannot sue in federal district court to challenge the
agency’s administrative enforcement process. But that
does not rule out that Congress may still have
impliedly precluded district court jurisdiction when it
enacted a statutory scheme of administrative review.
See, e.g., Bennett v. U.S. Sec. and Exch. Comm’n, 844

App-5
F.3d 174, 181 (4th Cir. 2016); Jarkesy v. U.S. Sec. and
Exch. Comm’ 803 F.3d 9, 15 (D.C. Cir. 2015).
Courts have fashioned a two-step inquiry to
determine whether Congress impliedly precluded
jurisdiction. First, a court asks “whether Congress’s
intent to preclude district-court jurisdiction is ‘fairly
discernible in the statutory scheme.’” Bennett, 844
F.3d at 181 (quoting Thunder Basin Coal Co. v. Reich,
510 U.S. 200, 207 (1994)). Second, a court considers
“whether plaintiffs’ ‘claims are of the type Congress
intended to be reviewed within this statutory
structure.’” Id. (quoting Thunder Basin, 510 U.S. at
212).
We conclude that, following this two-step
analysis, Congress impliedly precluded district court
jurisdiction over claims of the type brought by Axon
when it enacted the FTC Act. We are guided and
constrained by the so-called Thunder Basin factors set
out by the Supreme Court in assessing this question.
I.

The Thunder Basin/Free Enterprise/Elgin
trilogy for determining implied preclusion
of jurisdiction.

The Supreme Court set out the modern standard
for implied preclusion of district court jurisdiction in
three cases: Thunder Basin Coal Co. v. Reich, 510 U.S.
200 (1994), Free Enter. Fund v. Pub. Co. Acct.
Oversight Bd., 561 U.S. 477 (2010), and Elgin v. Dep’t
of Treasury, 567 U.S. 1 (2012). Because we apply the
so-called Thunder Basin factors here, a closer look at
each case will assist our analysis.
A.

Thunder Basin

App-6
In Thunder Basin, the Supreme Court considered
whether the Federal Mine Safety and Health
Amendments Act of 1977, 30 U.S.C. §801 et seq.,
prevented a district court from exercising jurisdiction
over a pre-enforcement challenge to the statute. 510
U.S. at 202. Thunder Basin Coal Company objected to
an order by the Mine Safety and Health
Administration (MSHA) requiring the company to
post two members of a miner’s union, who were not
employees of the company, as representatives during
a healthy and safety inspection. See id. at 205.
Thunder Basin made two arguments: (1) the
designation of nonemployee representatives violated
collective bargaining principles under the National
Labor Relations Act, and (2) forcing the company to
challenge MSHA’s regulatory interpretations through
the administrative review process would violate due
process because it would force the company to choose
between possible penalties for violating the act or
irreparable harm from complying with the agency’s
order. See id. at 205-06.
The Supreme Court concluded that the Mine Act
precluded district court jurisdiction. Under the first
step of the analysis, the Court held that it could
discern Congress’ intent to preclude district court
jurisdiction based on the Mine Act’s “detailed
structure for reviewing violations,” subject to review
by the federal court of appeals. Id. at 207-08. Then
under the second step, the Court determined that the
claims were of the type Congress intended to be
reviewed within this scheme. First, it concluded that
the company’s claims fell within the agency’s expertise
because they essentially required an interpretation of
the parties’ rights and duties under the relevant

App-7
statute and regulation. Id. at 214-15. Second, though
the agency lacked the authority to decide
constitutional issues, the court of appeals could
address them after the parties concluded the
administrative proceeding. Id. at 215. Third, the Court
rejected the argument that due process required preenforcement action because it found that Thunder
Basin would not face any serious prehearing
deprivation that could not be remedied on appeal. Id.
at 216-18.
The big takeaway from Thunder Basin is that an
administrative review scheme can preclude district
court jurisdiction, despite the possibility that the
administrative process cannot address or remedy the
alleged constitutional harm until a federal court of
appeals reviews the case.
B.

Free Enterprise

The second Supreme Court case, Free Enterprise,
considered whether the structure of the Public
Company Accounting Oversight Board violated Article
II’s vesting of executive power in the presidency. 561
U.S. at 483-84. An accounting firm sued after the
Board released a report critical of the firm’s auditing
procedures and began a formal investigation. Id. at
487. The firm sought a declaratory judgment that the
Board’s structure violated the Appointment Clause
and an injunction preventing the Board from
exercising its powers. Id. Notably, the firm did not
challenge the agency’s final order or rule, but rather
the Board’s critical report.
The Supreme Court determined that the statutory
scheme did not preclude jurisdiction. Id. at 489. For
the second step of the analysis—whether the claims

App-8
are of the type meant to be reviewed within the
statutory scheme—the Court identified three factors
from Thunder Basin to consider: (1) whether a party
can obtain “meaningful judicial review” within the
statutory scheme, (2) whether the suit is “wholly
collateral to a statute’s review provisions,” and (3)
whether the claims are “outside the agency’s
expertise.” Id. (internal quotation marks omitted). 2
In ruling that statutory scheme did not strip
jurisdiction, the Court held that the firm could not
obtain meaningful review of its claim under the
statutory scheme because it did not challenge a final
agency order or rule. Though the Board acted under
SEC oversight, the SEC can review only Board rules
and sanctions. Id. at 489. This meant that “not every
Board action is encapsulated in a final Commission
order or rule.” Id. at 490. The accounting firm was
challenging the Board’s critical report, which cannot
be reviewed by the agency or the appellate court. So
the only way the firm could raise its constitutional
claim under the statutory scheme was to either
challenge a “random” Board rule or willingly incur a
Board sanction by violating a discovery order. See id.
The Court thus held that the statutory scheme did not
provide a meaningful judicial review. Id. The Court
also concluded that the constitutional claims were
outside the SEC’s competence and expertise because
they were “standard questions of administrative law”
rather than “technical considerations of agency
policy.” Id. at 491 (alteration omitted).
2 Because the Court viewed these factors as originating from
Thunder Basin, courts have sometimes called them the Thunder
Basin factors.

App-9
Free Enterprise makes clear that if a party cannot
seek judicial review for its grievances under the
normal procedures of the statutory scheme, it does not
have meaningful judicial review.
C.

Elgin

Finally, the third Supreme Court case, Elgin,
addressed whether the Civil Service Reform Act of
1978 (CSRA) “provides the exclusive avenue to judicial
review when a qualifying employee challenges an
adverse employment action by arguing that a federal
statute is unconstitutional.” 567 U.S. at 5. The
petitioners argued that the federal government’s
Selective Service registration requirement for males
violated the Equal Protection Clause. Id. at 6-7.
The Supreme Court found that Congress
precluded district court jurisdiction over such claims.
The majority opinion first concluded that there was a
fairly discernible congressional intent to preclude
jurisdiction because of the CSRA’s detailed structure.
See id. at 10-13.
The Court also found that the claims were of the
type Congress intended to preclude. For the first
Thunder Basin factor, the Court found that there was
meaningful review even though the agency lacked the
authority to address the constitutional issues because
the statute ultimately “provides review in the Federal
Circuit, an Article III court fully competent to
adjudicate petitioners’ claims. …” Id. at 17. For the
second factor, the Court held that the claims were not
wholly collateral to the CSRA scheme because the
claims were “the vehicle by which they seek to reverse”
the agency actions taken against them. Id. at 21-22.
Finally, for the third factor, the Court explained that

App-10
the agency could bring its expertise to bear on
“threshold” questions within the agency’s expertise;
for example, one petitioner’s claim rested on an
allegation of constructive discharge, which the agency
could resolve in a manner that could avoid the need to
reach the constitutional claim. Id. at 22-23.
Elgin thus clarified that a claim is not “wholly
collateral” to a statutory review scheme if it is the
“vehicle by which” a party seeks to prevail at the
agency. Elgin also shows that sometimes an agency’s
expertise can affect constitutional claims if there are
preliminary questions apart from the merits questions
at issue.
With these three cases in mind, we now turn to
the implied preclusion analysis.
II. Step one: The FTC Act evinces a fairly
discernible intent to preclude district court
jurisdiction.

Axon appears to concede that the FTC Act
impliedly precludes jurisdiction for at least some
claims. The FTC Act includes a detailed overview of
how the FTC can issue complaints and carry out
administrative proceedings. 15 U.S.C. §45. This
provision is almost identical to the statutory review
provision in the SEC Act, which other circuits have
held shows a fairly discernible intent to strip district
court jurisdiction. See, e.g., Hill v. SEC, 825 F.3d 1236,
1241 (11th Cir. 2016); Tilton v. SEC, 824 F.3d 276, 281
(2d Cir. 2016). We thus hold that the FTC Act reflects
a fairly discernible intent to preclude district court
jurisdiction.

App-11
III. Step two: The Thunder Basin factors suggest
that the claims are of the type to be reviewed
within the statutory scheme.

We now turn to whether Axon’s claims are of the
type meant to be reviewed within the FTC Act’s
statutory scheme. Axon argues that it has three claims
for the district court to decide: (1) the clearance
process used to determine whether the FTC or DOJ
will review a merger violates due process, (2) the fact
that the FTC combines investigatory, prosecutorial,
adjudicative, and appellate functions within a single
agency violates due process, and (3) the dual-layer of
protection given to FTC ALJs violates the
Appointments Clause of Article II of the Constitution. 3
Under the Thunder Basin factors, we must
consider: (1) whether the plaintiff can obtain
meaningful judicial review in the statutory scheme,
(2) whether the claim is “wholly collateral” to the
statutory scheme, and (3) whether the claim is outside
the agency’s expertise. See Elgin, 567 U.S. at 15 (citing
Thunder Basin, 510 U.S. at 215). The D.C. Circuit has
explained that these three factors do not “form three
distinct inputs into a strict mathematical formula,”
but are rather “general guideposts useful for
channeling the inquiry into whether the particular
claims at issue fall outside an overarching
congressional design.” Jarkesy, 803 F.3d at 17. Several
courts have also concluded that “the first factor—
meaningful judicial review—is ‘the most critical

3 These three claims do not line up with the three claims that
Axon brought in its complaint. Rather, Axon agreed that the FTC
should decide the merits of the antitrust dispute and that the
clearance process claim falls within its due process claim.

App-12
thread in the case law.’” See, e.g., Hill, 825 F.3d at
1245 (quoting Bebo v. SEC, 799 F.3d 765, 774 (7th Cir.
2015)).
In applying these Thunder Basin factors, we
conclude that Axon’s claims are of the type meant to
be reviewed within the statutory scheme.
A. Axon will have meaningful judicial
review of its claims.
Axon’s argument on the first Thunder Basin
factor boils down to a simple premise: eventual review
by the federal appellate court is not meaningful
judicial review. But Supreme Court precedent, as well
as rulings from our sister circuits, rejects that
premise.
First, Axon argues that the FTC Act does not
provide meaningful judicial review because the
administrative process itself “creates ongoing
constitutional harm that simply cannot be remedied in
an after-the-fact appeal.” But the Supreme Court in
Thunder Basin held that the “petitioner’s statutory
and constitutional claims here can be meaningfully
addressed in the Court of Appeals,” even though the
petitioner there similarly argued that the agency
process itself would violate its constitutional rights.
See Thunder Basin, 510 U.S. at 215; see also FTC v.
Standard Oil Co. of Cal., 449 U.S. 232, 244 (1980)
(rejecting petitioner’s argument that “the expense and
disruption of defending itself in protracted
adjudicatory proceedings” warrants an exception to
the agency review process). 4
4 Axon seeks to distinguish Standard Oil on the basis that it
did not deal with an allegedly unconstitutional proceeding. Other

App-13
Other circuits have rejected this argument as
well. As the Eleventh Circuit explained in Hill v. SEC,
“[w]hether an injury has constitutional dimensions is
not the linchpin in determining its capacity for
meaningful judicial review.” 825 F.3d at 1246; see also
Bennett v. U.S. Sec. and Exch. Comm’n, 844 F.3d 174,
184 n.10 (4th Cir. 2016) (“[F]ederal courts require
litigants
who
unsuccessfully
challenge
the
constitutionality of the initial tribunal—including the
authority of the presiding decision maker—to endure
the proceeding and await possible vindication on
appeal.”); Tilton, 824 F.3d at 285 (explaining that
“post-proceeding relief, although imperfect, suffices to
vindicate the litigant’s constitutional claim” dealing
with the legitimacy of the tribunal).
In other words, Axon has no right to avoid the
administrative proceeding itself. If the proceeding
might harm Axon, that harm can still be ultimately
remedied by a federal court of appeals, even if it is not
Axon’s preferred remedy of avoiding the agency
process altogether. See Bennett, 844 F.3d at 185 n.12
(rejecting the argument that a court could not provide
circuits have rejected this distinction, however. See Jarkesy, 803
F.3d at 26 (“If the injury inflicted on the party seeking review is
the burden of going through an agency proceeding . . . then
[Standard Oil] teaches that the party must patiently await the
denouement of proceedings within the Article II Branch.”
(internal quotation marks omitted)); Bennett, 844 F.3d at 185
(rejecting the argument that “Standard Oil is inapposite because
it did not involve a constitutional claim” because it “makes no
material difference for assessing the meaningfulness of judicial
review here, because Thunder Basin and Elgin establish that
petitioners can obtain meaningful review of constitutional claims
through a statutory scheme similar to the one here”).

App-14
“complete relief” to the Appointments Clause claim
and explaining that the petitioner is not necessarily
“entitled to her preferred remedy” given that
“Congress may substitute remedies for illegal action”).
Axon’s argument also proves too much because then
“[e]very person hoping to enjoin an ongoing
administrative
proceeding
could
make
this
argument,” which would undermine the notion that it
is “only in the exceptional cases … where courts allow
plaintiffs to avoid the statutory review schemes
prescribed by Congress.” Bebo, 799 F.3d at 775. 5
Axon also complains that it can obtain judicial
review only if FTC prevails in the administrative
proceeding and issues a cease and desist order. 15
U.S.C. §45(c). But that is true for any statutory review
scheme that allows only for review of final agency
orders. For example, the SEC review scheme allows
judicial review only for “[a] person aggrieved by a final
order of the Commission,” 15 U.S.C. §78y(a)(1), yet
every other circuit to have addressed the SEC
It is telling that Axon appears disappointed that “the best
Axon can hope for is a remand for a complete do-over.” A “doover,” however, is exactly the type of relief the Supreme Court
has ordered when it has found a constitutional violation of an
agency process. See Lucia v. SEC, 138 S. Ct. 2044, 2055 (2018)
(after finding an Appointments Clause violation, concluding that
“the ‘appropriate’ remedy for an adjudication tainted with an
appointments violation is a new ‘hearing before a properly
appointed’ official”); see also Free Enterprise, 561 U.S. at 508-513
(rejecting the argument that the Appointments Clause violation
rendered all of the Board’s actions and authority in violation of
the Constitution and instead severing the unconstitutional
tenure provisions from the statute and concluding that
“petitioners are not entitled to broad injunctive relief against the
Board’s continued operations”).
5

App-15
statutory scheme found that a party can obtain
meaningful judicial review. See Bennett, 844 F.3d at
186; Hill, 825 F.3d at 1246; Tilton, 824 F.3d at 286-87;
Jarkesy, 803 F.3d at 20; Bebo, 799 F.3d at 774. If we
accepted Axon’s argument, it would create a gaping
loophole to the statutory scheme that Congress could
not have intended. As the Fifth Circuit explained,
“Congress provides meaningful judicial review by
authorizing review of challenges to a final agency
order by a federal circuit court.” Bank of La. v. FDIC,
919 F.3d 916, 925 (5th Cir. 2019).
To be sure, sometimes the burden of an agency
process may justify pre-enforcement relief. But that is
for exceptional circumstances not relating to typical
agency review. We agree with the Second Circuit’s
view in Tilton: “[T]he Supreme Court has concluded
that post-proceeding judicial review would not be
meaningful because the proceeding itself posed a risk
of some additional and irremediable harm beyond the
burdens associated with the dispute resolution
process.” 824 F.3d at 286 (emphasis added); see also
McNary v. Haitian Refugee Ctr., Inc., 498 U.S. 479,
496 (1991) (finding that petitioners’ claims were not
precluded by a statutory review provision because
petitioners would have had to “voluntarily surrender
themselves for deportation” to obtain review);
Mathews v. Eldridge, 424 U.S. 319, 331 (1976)
(explaining that exhaustion was not required because
petitioner faced harm arising from “his physical
condition and dependency upon the disability
benefits,” not the alleged deprivation of due process
that was the basis for his claim).

App-16
Axon does not face such a dire risk requiring preenforcement relief. See Tilton, 824 F.3d at 286
(concluding that “appellants have identified no such
additional, irremediable harm here” because “[t]he
only prospective injury that they describe is being
subjected to an unconstitutional adjudicative
procedure”) (internal quotation marks omitted));
Jarkesy, 803 F.3d at 21 (finding that the petitioner’s
claim was not like McNary). Thus, Axon’s alleged
constitutional harm does not prevent the FTC Act’s
statutory review scheme from providing meaningful
judicial review.
Second, Axon argues that the agency review
process cannot provide meaningful review because it
cannot address Axon’s constitutional claims. Axon’s
argument makes sense from a policy perspective: it
seems odd to force a party to raise constitutional
challenges before an agency that cannot decide them.
But the Supreme Court has rejected that argument.
In Elgin, the Court held that, even if the agency
cannot decide constitutional claims, a meaningful
judicial review exists as long as the party ultimately
can appeal to “an Article III court fully competent to
adjudicate petitioners’ claims.” 567 U.S. at 17; see also
id. (explaining that in Thunder Basin “we held that
Congress’ intent to preclude district court jurisdiction
was fairly discernible in the statutory scheme ‘[e]ven
if’ the administrative body could not decide the
constitutionality of a federal law” when “[t]hat
issue … could be ‘meaningfully addressed in the Court
of Appeals’ that Congress had authorized to conduct
judicial review”); Bank of Louisiana, 919 F.3d at 926
(“Indeed, there can be meaningful review in the circuit
court even if the agency itself lacks authority to decide

App-17
the constitutional question presented.”); Jarkesy, 803
F.3d at 19 (“Because Jarkesy's constitutional claims,
including his non-delegation challenge to Dodd-Frank,
can eventually reach ‘an Article III court fully
competent to adjudicate’ them, it is of no dispositive
significance whether the Commission has the
authority to rule on them in the first instance during
the agency proceedings.”). Here, Axon can present its
constitutional claims to this court after the conclusion
of the FTC enforcement proceedings. That is enough
under Supreme Court precedent.
Third, the Supreme Court in Elgin rejected the
premise of Axon’s argument that there cannot be
meaningful review if the agency process does not
create an appropriate record for the federal court of
appeals. It held that the court of appeals can take
judicial notice of relevant facts or remand to the
agency to make factual findings. Elgin, 567 U.S. at 19.
Here, 15 U.S.C. §45(c) allows the court of appeals to
“order such additional evidence to be taken before the
Commission and to be adduced upon the hearing in
such manner and upon such terms and conditions as
to the court may seem proper.” 6
Finally, Axon argues—and the dissent agrees—
that its claims resemble those from Free Enterprise.
Under Axon’s and the dissent’s reading of Free
Axon’s reliance on Fashion Originators Guild of America v.
FTC, 114 F.2d 80 (2nd Cir. 1940) is inapt. That case dealt with a
situation in which the petitioner asked the court to review
whether it was proper for FTC to actively exclude evidence that
it deemed irrelevant. See id. at 82-83. That does not affect
whether a court can remand for further factfinding as it pertains
to Axon’s constitutional claims.
6

App-18
Enterprise, challenges to an “agency’s structure,
procedures, or existence … are not precluded from
district court jurisdiction.” Dissent at 37-38. As the
dissent cogently points out, it makes little sense to
force a party to undergo a burdensome administrative
proceeding to raise a constitutional challenge against
the agency’s structure before it can seek review from
the court of appeals. And if we were writing on a clean
slate, we would agree with the dissent. 7 Cf. Ortega v.
United States, 861 F.2d 600, 603 & n. 4 (9th Cir.1988)
(“This case is squarely controlled by the Supreme
Court's recent decision. … [We] agree[ ] with the
dissent that [appellant] deserves better treatment
from our Government. Unfortunately, legal precedent
deprives us of discretion to do equity.”).
But the Supreme Court in Free Enterprise did not
carve out a broad exception for challenges to an
agency’s structure, procedure, or existence. Rather,
the Court justified district court jurisdiction on the
narrow ground that the challenged action—the
Board’s critical report of the auditing firm—did not
amount to a final order that could be appealed to a
court under the statutory scheme. Free Enterprise, 561
U.S. at 490-91 (“We do not see how petitioners could
meaningfully pursue their constitutional claims”
The dissent cites Mace v. Skinner, 34 F.3d 954 (9th Cir. 1994),
and Latif v. Holder, 686 F.3d 1122 (9th Cir. 2012), but neither
mandates district court jurisdiction here. Mace did not cite or
apply Thunder Basin. And Latif did not consider the Thunder
Basin factors under the second step of the implied preclusion
analysis because the court ruled under the first step that
Congress’ intent to preclude jurisdiction was not “fairly
discernable from the statutory scheme” at issue. 686 F.3d at
1129.
7

App-19
because the statute “provides only for judicial review
of Commission action, and not every Board action is
encapsulated in a final Commission order or rule”). In
other words, “an uncomplimentary inspection report
is not subject to judicial review” under the statute. Id.
at 490. So the auditing firm had no way to obtain
judicial review, other than selecting a “random” Board
Rule to challenge or “incur a sanction (such as a
sizable fine) by ignoring Board requests for documents
and testimony.” Id. The Court held that neither option
offered access to a meaningful judicial review. Id. at
490-91. In other words, Free Enterprise does not
appear to address a scenario where there is eventual
judicial review, but rather speaks only to a situation
of no guaranteed judicial review.
In Axon’s case, though, it does not have to
intentionally violate a “random” rule or incur
sanctions by violating discovery orders to obtain
judicial review of its claims. Under the statute, Axon
has the right to seek judicial review from this court
once the enforcement proceeding ends. It may not be
an efficient mechanism to seek judicial review, but
this court will eventually hear Axon’s claims as long
as it continues to oppose the FTC’s actions. And any
adverse order issued by the FTC would be stayed until
Axon has had a chance to seek judicial review. See 15
U.S.C. §45(g)(1)-(2). 8 Under Supreme Court
8 The dissent notes that Axon may not have an opportunity to
have a court review the structure of the FTC if the FTC drops its
investigation or Axon prevails on the merits during the
administrative proceeding. But under either scenario, Axon has
prevailed over FTC, and that ends the dispute. Put another way,
Axon is not entitled to a judicial ruling on its constitutional claim

App-20
precedent, that amounts to meaningful judicial
review. See Thunder Basin, 510 U.S. at 215
(“constitutional claims here can be meaningfully
addressed in the Court of Appeals,” despite
petitioner’s argument that the agency process itself
would violate its constitutional rights); Standard Oil
Co. of Cal., 449 U.S. at 244. Perhaps the Supreme
Court in the near future will clarify and extend the
holding of Free Enterprise to include any
constitutional challenge to any agency’s structure,
procedure, or existence. But based on our best reading
of Free Enterprise, the Court has not done so yet. Thus,
Free Enterprise does not control here. In sum, because
“[t]he statutory scheme at issue in this case authorizes
review of final [agency] orders in a federal circuit
court,” the FTC Act provides Axon meaningful judicial
review under the first Thunder Basin factor. Bank of
Louisiana, 919 F.3d at 926. 9
challenging the administrative proceeding if it has prevailed on
the merits.
Though Axon repeatedly points to cases involving a court
asserting jurisdiction over pattern and practice claims, those
cases are inapt. None of those cases even mention the possibility
that Congress can impliedly preclude district court jurisdiction,
so they are not relevant. See generally McNary v. Haitian Refugee
Ctr., Inc., 498 U.S. 479 (1991); Gebhardt v. Nielsen, 879 F.3d 980
(9th Cir. 2018); Veterans for Common Sense v. Shinseki, 678 F.3d
1013 (9th Cir. 2012). Moreover, many of these cases fit within the
implied preclusion framework because they consider whether the
parties could have obtained meaningful review or whether the
claims at issue were collateral to the review scheme. See McNary,
498 U.S. at 496 (finding jurisdiction in part because, “if not
allowed to pursue their claims in the District Court, respondents
would not as a practical matter be able to obtain meaningful
judicial review of their application denials or of their objections
9

App-21
B. Axon’s constitutional claims are arguably
“wholly collateral” to the enforcement
proceeding.
Courts have offered two competing ways to
consider the second Thunder Basin factor of whether
a claim is “wholly collateral” to the statutory review
scheme.
Some district courts have held that a claim is
wholly collateral to the statutory enforcement scheme
if it is not substantively intertwined with the merits
dispute in the agency proceeding. See, e.g., Hill v.
SEC, 114 F. Supp. 3d 1297 (N.D. Ga. 2015). Because
Axon’s constitutional challenges can be substantively
separated from the underlying antitrust claim before
the FTC, Axon argues that they are wholly collateral
to the merits claim.
In contrast, several of our sister circuits—the D.C.
Circuit, Second Circuit, and the Fourth Circuit—have
applied this factor in the procedural sense: “a claim is
not wholly collateral if it has been raised in response
to, and so is procedurally intertwined with, an
administrative proceeding—regardless of the claim’s
substantive connection to the initial merits dispute in
the proceeding.” Tilton, 824 F.3d at 287; see also

to INS procedures notwithstanding the review provisions”); VCS,
678 F.3d at 1034-35 (relying on the fact that the claim at issue
could not have been raised under the statutory scheme); City of
Rialto v. W. Coast Loading Corp., 581 F.3d 865, 874 (9th Cir.
2009) (asking “whether the claim . . . is collateral to an alien’s
substantive eligibility” and “stress[ing] the importance of
meaningful judicial review of agency action.”).

App-22
Bennett, 844 F.3d at 187; Jarkesy, 803 F.3d at 22-25. 10
In other words, if the claim is the procedural vehicle
that the party is using to reverse the agency action, it
is not “wholly collateral” to the review scheme.
We agree that “the second reading is more faithful
to the more recent Supreme Court precedent. … ”
Bennett, 844 F.3d at 187. Elgin found that a
petitioner’s constitutional claims were not wholly
collateral when those claims were “the vehicle by
which they seek to reverse the removal decisions” and
to obtain relief. 567 U.S. at 22. Neither Thunder Basin
nor Free Enterprise shed any light on whether “wholly
collateral” should be construed procedurally or
substantively. See Free Enterprise, 561 U.S. at 490-91
(not addressing the nature of “wholly collateral”);
Thunder Basin, 510 U.S. at 212-13 (same).
While it is a close call, we find that the second
Thunder Basin factor also supports preclusion of
jurisdiction. Axon’s complaint seeks to avoid the FTC
process and the agency’s settlement demands. Indeed,
Axon’s requested relief includes an injunction to
prevent the FTC from pursuing its administrative
enforcement action. The claims are therefore the
“vehicle by which” Axon seeks to prevail at the agency
level and are not wholly collateral to the review
scheme.
C. The FTC lacks agency expertise to resolve
the constitutional claims.

10 The Fifth, Seventh, and Eleventh Circuits have not
definitively addressed this issue. See Bank of Louisiana, 919 F.3d
at 928; Hill, 825 F.3d at 1251-52; Bebo, 799 F.3d at 773-74.

App-23
The third Thunder Basin factor—whether the
claims are outside the agency’s expertise—weighs
against jurisdiction-stripping.
Like the second factor, this third factor is cloaked
in ambiguity. The Supreme Court in Free Enterprise
took a straightforward approach: when an issue does
not involve “technical considerations of [agency]
policy” and instead involves “standard questions of
administrative law, 561 U.S. at 491 (internal
quotation marks omitted), the issue lies outside the
agency’s expertise. On the other hand, the Court
several years later in Elgin arguably appeared to take
a more expansive view of agency expertise, stating
that there may be “threshold questions that may
accompany a constitutional claim and to which the
[agency] can apply its expertise” or “preliminary
questions unique to the employment context [that]
may obviate the need to address the constitutional
challenge.” 567 U.S. at 22-23. Some circuits have read
Elgin as suggesting that if an agency can moot the
constitutional claims by resolving the merits issues
before the agency, then the agency can bring its
expertise to bear. See, e.g., Bank of Louisiana, 919
F.3d at 929 (citing Jarkesy, 803 F.3d at 29).
We, however, disagree with the expansive reading
of Elgin. Such an approach is hard to reconcile with
Free Enterprise unless we assume that Elgin somehow
overruled Free Enterprise sub silentio. See Shalala v.
Ill. Council on Long Term Care, Inc., 529 U.S. 1, 18,
120 S. Ct. 1084, 1096, 146 L. Ed. 2d 1 (2000) (“This
Court does not normally overturn, or so dramatically
limit, earlier authority sub silentio.”); see also United
States v. Obaid, 971 F.3d 1095, 1102 (9th Cir. 2020)

App-24
(citing Shalala, 529 U.S. at 18) (“We should not
assume that the Supreme Court has implicitly
overruled its precedent.”). Indeed, such an
interpretation renders this third factor virtually
meaningless because any challenge to an
administrative process can be mooted if a party
prevails on the substantive merits.
A narrower reading of Elgin reconciles it with
Free Enterprise. The constitutional challenges in Elgin
required the determination of certain “threshold”
questions that were directly within the agency’s
expertise. For example, one petitioner’s claim relied on
the preliminary issue of whether he was subject to a
constructive discharge. See Elgin, 567 U.S at 23. In
other words, Elgin stands for the unremarkable
proposition that an agency’s expertise can sometimes
help decide an issue and thus obviate the need to
resolve a constitutional claim. It does not establish a
broad rule that an agency can always moot a claim by
simply ruling for the party.
Here, there are no threshold questions that need
to be addressed before reviewing Axon’s constitutional
claims. The due process and Appointments Clause
claims do not turn on the antitrust merits of the case,
so there is little room for the FTC to bring its expertise
to bear. Rather, Axon’s claims are more like the
“standard questions of administrative law” that the
Free Enterprise Court addressed.
Thus, the third factor weighs against preclusion.
*

*

*

The Thunder Basin factors point in different
directions here. Axon will have meaningful judicial
review of its claims from within the statutory review

App-25
scheme, which points to jurisdiction preclusion. The
“wholly collateral” factor also likely favors preclusion,
though that is far from clear. On the other hand, the
agency expertise factor weighs against preclusion.
We agree with the other circuits, however, that
under Supreme Court precedent the presence of
meaningful judicial review is enough to find that
Congress precluded district court jurisdiction over the
type of claims that Axon brings. See Bennett, 844 F.3d
at 183 n.7; Bebo, 799 F.3d at 774.
This is not to minimize Axon’s serious concerns
about how the FTC operates. For one, Axon raises
substantial questions about whether the FTC’s duallayered for-cause protection for ALJs violates the
President’s removal powers under Article II. See, e.g.,
Free Enterprise, 561 U.S. at 484 (ruling that dual forcause limitations of Board members violates
separation-of-powers); Lucia v. SEC, 138 S. Ct. 2044
(2018) (holding that SEC ALJs are “Officers” subject
to the Appointments Clause); Seila Law LLC v. CFPB,
140 S. Ct. 2183, 2192 (2020) (finding that the removal
restrictions on the director of the CFPB violated
Article II of the Constitution).
This case implicates one of the inherent tensions
in the modern administrative state: Congress wanted
to insulate ALJs from political interference, but ALJs
wield tremendous power and still remain a part of the
executive branch—even if Congress bestowed them
with the title “judge”—and they should thus
theoretically remain accountable to the President and
the people. As the Supreme Court cautioned in Free
Enterprise, the “growth of the Executive Branch,
which now wields vast power and touches almost

App-26
every aspect of daily life, heightens the concern that it
may slip from the Executive’s control, and thus from
that of the people.” 561 U.S. at 499. See also, e.g.,
Linda D. Jellum, “You’re Fired!” Why the Alj MultiTrack Dual Removal Provisions Violate the
Constitution and Possible Fixes, 26 Geo. Mason L. Rev.
705, 743 (2019) (arguing that, in light of Free
Enterprise, ALJs’ dual-layers of protection violate the
Constitution).
Further, Axon raises legitimate questions about
whether the FTC has stacked the deck in its favor in
its administrative proceedings. Axon claims—and
FTC does not appear to dispute—that FTC has not lost
a single case in the past quarter-century. Even the
1972 Miami Dolphins would envy that type of record.
Indeed, a former FTC commissioner acknowledged
that the FTC adjudication process might unfairly
favor the FTC given the agency’s stunning win rate.
Axon essentially argues that the FTC administrative
proceeding amounts to a legal version of the
Thunderdome in which the FTC has rigged the rules
to emerge as the victor every time. But we cannot
move beyond the Thunder Basin factors, which
mandate our conclusion that Axon cannot bring a
claim in district court. Axon can have its day in
court—but only after it first completes the FTC
administrative proceeding.
IV.

Axon’s Clearance Process Claim

Finally, we address separately Axon’s novel and
superficially appealing argument that it lacks a
meaningful judicial review of the government’s
“clearance process” claim.

App-27
Before deciding whether to move forward with an
enforcement action, the FTC and the U.S. Department
of Justice confer and decide which agency will bring
the action, according to Axon. This alleged “black box”
decision process has a significant impact on Axon and
other targets of investigation: They may avail
themselves of the procedural protections offered at a
trial in district court (if the Department of Justice files
a complaint), or they may be shunted to an
administrative proceeding (if the FTC pursues the
matter). Axon argues that it has no meaningful
judicial review of this “clearance process” decision
under the FTC statutory scheme, and thus should be
able to raise it in district court.
But a closer look at this claim shows that it is
really not about pre-investigation or pre-enforcement
decisions, but rather about the procedures the FTC
will use. Axon takes issue with the fact that, when the
FTC takes the case, companies are deprived “of the
substantive or procedural protections enjoyed by
litigants in federal district court.” In other words, the
clearance process falls within Axon’s due process
claim because it is arguing that it will face an unfair
proceeding before the FTC. Indeed, Axon admitted as
much.
But Axon will eventually have meaningful judicial
review of its due process claim because it can raise it
before a federal court of appeals after the
administrative proceeding. If the court of appeals
rules that the FTC administrative proceeding violates
Axon’s due process rights, it will presumably be then
entitled to a trial in district court. On the other hand,
if the FTC proceeding does not run afoul of due

App-28
process, then Axon’s complaint is ultimately that it
prefers the Department of Justice over the FTC to lead
the enforcement action. But the executive branch
enjoys latitude in deciding what type of enforcement
action to pursue and which agency will lead it. Cf.
Heckler v. Chaney, 470 U.S. 821, 832 (1985) (agency’s
decision not to pursue enforcement is unreviewable
under the APA); Standard Oil, 449 U.S. at 242-45
(1980) (agency’s decision to enforce is unreviewable).
Absent any due process concerns, the target of an
enforcement action cannot dictate the choices of the
executive branch.
And under the Thunder Basin factors, Axon’s
clearance process claim—which is a due process
claim—falls within the statutory review scheme.
First, Axon has an opportunity for judicial review at
the end of the process. See supra pp. 11, 13-21. Even
though Axon asserts that the harm from the clearance
process occurred before the enforcement action began,
what matters is that Axon is currently in an
administrative proceeding that ultimately leads to
judicial review. 11 Second, Axon’s challenge to the
FTC’s adjudicative procedures is not “wholly
collateral” to the statutory scheme because it is the
“vehicle by which” it seeks to succeed at the agency
proceeding. Finally, there is a stronger argument that
the agency expertise factor warrants preclusion of the
clearance process claim than for Axon’s other claims.
The FTC might have valuable insight into how the
11 Had Axon brought its clearance process claim early in the
investigation, before the enforcement proceeding began, though,
Axon might have had a stronger case for district court
jurisdiction, but that issue is not properly before us.

App-29
clearance process works and demonstrate that the
process does in fact comport with due process, which
makes such questions more like the “threshold” issues
addressed in Elgin than allowing the agency to avoid
constitutional issues be deciding the case on the
substantive merits.
Thus, we find that Axon’s clearance process claim,
just like its other claims, is of the type Congress
intended to be reviewed under the FTC Act’s statutory
review scheme.
CONCLUSION

We hold that Supreme Court precedent compels
the preclusion of district court jurisdiction over Axon’s
claims. The FTC Act reflects a fairly discernible intent
to preclude district court jurisdiction, and Axon can
ultimately obtain meaningful judicial review of its
claims before this court once the FTC administrative
proceeding concludes. We AFFIRM the district court’s
dismissal for lack of subject matter jurisdiction.
BUMATAY, Circuit Judge, concurring
judgment in part and dissenting in part:

in

the

Axon Enterprise, Inc., a major manufacturer of
law-enforcement equipment, challenges the very
existence of the Federal Trade Commission—an
independent agency created by Congress—as
unconstitutional. First, Axon alleges that the
“clearance process” used by the FTC and the
Department of Justice to divide up antitrust
investigations violates due process and equal
protection guarantees. Second, the company claims
that the double layer of termination protection for the
FTC’s administrative law judges infringes on the
president’s Article II authority. Finally, it challenges

App-29
the constitutionality of the FTC’s administrative
structure, which vests it with investigative,
prosecutorial, and adjudicative powers.
At first blush, this case appears to be a weighty
constitutional one. Indeed, the advent of independent,
administrative agencies has called on courts to test
the bounds of the Constitution’s defined structural
limitations. But those issues are not the subject of this
appeal. The district court dismissed the case for lack
of jurisdiction, ruling that Axon must first raise its
arguments before the FTC. So the narrow, but equally
important, question before the court is whether the
district court has jurisdiction to consider Axon’s broad
constitutional claims in the first instance.
Following Supreme Court precedent and
according due respect to separation-of-powers
principles, I believe the clear answer to that
question—at least for some of Axon’s claims—is yes.
The majority holds otherwise. Although thoughtfully
considering the question, my friends in the majority
unfortunately rule that Axon is precluded from its day
in court and instead must bring its claims to the
FTC—the very agency it seeks to have declared
unconstitutional. To get there, the majority
misapplies Court precedent and ignores the injuries
Axon is trying to vindicate. What’s worse, by funneling
the challenge to the FTC back to the FTC, Axon may
forever be foreclosed from obtaining meaningful
judicial review of its claims. For these reasons, I
respectfully dissent.
I.
Congress established the FTC over 100 years ago
when President Woodrow Wilson signed the Federal

App-30
Trade Commission Act into law. 38 Stat. 717 (1914).
The FTC is tasked with preventing the use of “unfair
methods of competition” and “unfair or deceptive acts
or practices” in commerce. 15 U.S.C. §45(a)(2). The Act
authorizes administrative proceedings within the
agency to determine if a party is engaged in these
prohibited methods, acts, or practices. Id. §45(b). It
also empowers the FTC to issue a “cease and desist”
order against an antitrust violator. Id. After such an
order, review of the administrative adjudication is
only permitted in the “appropriate court of appeals of
the United States.” Id. §45(b), (d), (g).
Although the Act is silent on this question, we
must decide what role district courts play when a
party—like Axon—asserts broad constitutional claims
against the FTC itself. To start, it is a well-settled
presumption that Congress intended subject matter
jurisdiction in the district courts for all claims arising
under federal law. See Block v. Cmty. Nutrition Inst.,
467 U.S. 340, 350-51 (1984); 28 U.S.C. §1331. To be
sure, there is also a narrow exception to that
presumption:
sometimes
Congress
delegates
jurisdiction exclusively to an administrative agency to
consider a claim in the first instance. See Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 207 (1994). Such
action effectively strips district courts of original
jurisdiction over the claim. While this jurisdiction
stripping is usually explicit, it may also come
implicitly. See id. In all cases, we should favor a
“narrower construction” of jurisdiction stripping over
a “broader one.” ANA Int’l Inc. v. Way, 393 F.3d 886,
891 (9th Cir. 2004).

App-31
The Supreme Court has established a two-step
framework for discerning whether Congress impliedly
precluded district court jurisdiction over a party’s
claim. See Thunder Basin, 510 U.S. 200. Under that
precedent, district courts are impliedly precluded from
exercising jurisdiction when (1) Congress’s intent to
make an administrative process exclusive is “fairly
discernible” from the statutory scheme, and (2) the
claims at issue “are of the type Congress intended to
be reviewed within th[at] statutory structure.” Id. at
207, 212 (simplified). At the second step, we consider
what’s known as the Thunder Basin factors: (1)
whether the claims can be afforded “meaningful
judicial review” without district court jurisdiction; (2)
whether the claim is “wholly collateral” to the agency’s
review provisions; and (3) whether the claims are
“outside the agency’s expertise.” Id. at 212-13.
In Thunder Basin, the Court considered whether
a statutory scheme of administrative review followed
by judicial review in a federal appellate court
precluded district court jurisdiction over a plaintiff’s
statutory and constitutional claims. Id. at 206. The
Court noted that the plaintiff’s claims could be
“meaningfully addressed in the Court of Appeals” and
that the case therefore did “not present the ‘serious
constitutional question’ that would arise if an agency
statute were construed to preclude all judicial review
of a constitutional claim.” Id. at 215 n.20. Notably, the
Court explained that an agency’s statutory framework
will generally not serve as a bar to district court
jurisdiction over a constitutional challenge to the
agency’s procedures, when Congress only allows
appellate review of individual determinations. Id. at

App-32
213 (describing McNary v. Haitian Refugee Center,
Inc., 498 U. S. 479 (1991)).
The Court demonstrated how to apply the
Thunder Basin factors in two subsequent cases: Free
Enterprise Fund v. Public Company Accounting
Oversight Board, 561 U.S. 477 (2010), and Elgin v.
Department of Treasury, 567 U.S. 1 (2012).
In Free Enterprise Fund, the Court found
concurrent district court jurisdiction for a claim
challenging the constitutionality of an independent
board’s existence. 561 U.S. at 490. In that case, a
plaintiff was able to bring its constitutional claim in
district court because the board’s statutory scheme
only guaranteed judicial review of a board sanction or
rule. Id. Such cramped judicial review wasn’t enough
to divest the district court’s jurisdiction in the Court’s
view because “not every Board action is encapsulated
in” an appealable order. Id.
Two years later, in Elgin, the Court determined
another independent board had exclusive jurisdiction
to review claims dealing with the constitutionality
of—not the board itself—but of federal statutes
bearing on its merits determinations. 567 U.S. at 5-6.
The Court concluded the board’s administrative
procedures provided ample review since any merits
determination was reviewed by the Federal Circuit
and, thus, the constitutional issue would ultimately be
adjudicated by an Article III court. Id. at 17.
Our circuit has also considered the dividing line
between exclusive agency jurisdiction and concurrent
district court jurisdiction. In a case challenging an
executive agency’s authority, we have held that “any
examination of the constitutionality of [an agency’s

App-33
power],” rather than the merits of an individual
action, “should logically take place in the district
courts, as such an examination is neither peculiarly
within the agency’s ‘special expertise’ nor an integral
part of its ‘institutional competence.’” Mace v. Skinner,
34 F.3d 854, 859 (9th Cir. 1994). We later concluded
that plaintiffs raising “broad constitutional claims
that do not require review of the merits of their
individual [agency] grievances” are not precluded from
bringing their challenge in the district court. Latif v.
Holder, 686 F.3d 1122, 1129 (9th Cir. 2012) (applying
Elgin to a Department of Homeland Security
challenge); see also Americopters, LLC v. FAA, 441
F.3d 726, 736 (9th Cir. 2006) (allowing for district
court “residual jurisdiction” when a constitutional
claim for damages is not “inextricably intertwined”
with an agency order). 1
While jurisdictional questions are often complex,
the lesson of these cases is straightforward: Absent
legislative language to the contrary, challenges to an
agency’s structure, procedures, or existence, rather
than to an agency’s adjudication of the merits on an
individual case, may be heard by a district court. On
the other hand, complaints regarding the agency’s
application of substantive law to the merits of an
The majority wrongly discards these precedents. First, I
disagree that Mace is not controlling in light of Thunder Basin.
Maj. Op. at 19 n.7. The majority posits no irreconcilability
between the cases and so Mace remains binding law. See Miller
v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003) (holding that
precedent of this court remains binding unless it is “clearly
irreconcilable” with intervening Court decisions). Second, while
it is contestable whether Latif was a Thunder Basin step one or
two case, I fail to see why its guidance should be ignored here.
1

App-34
individual case are exclusively relegated to the
agency’s administrative process. Accordingly, our duty
should be to scrutinize each claim to determine
whether it’s merely an attack on a merits
determination or something more existential to the
agency.
The demarcation of jurisdiction along these lines
most respects the separation of powers. Congress
created the agency adjudicatory process precisely to
apply agency expertise to the merits of individual
claims. Having district court proceedings parallel to
an agency’s administrative proceeding amounts to a
collateral attack on agency decision-making and
would undermine its congressionally mandated role.
See Elgin, 567 U.S. at 14. Thus, preserving exclusive
agency jurisdiction over individualized claims
furthers Congress’s intent. But to the extent the
claims target the agency’s existence, structure, or
procedures under the Constitution, rather than its
merits decisions, the district court remains an
appropriate forum for such action. After all,
pronouncing the constitutionality of a government
function is precisely the business of Article III courts.
II.

Applying the foregoing principles, Axon was
entitled to bring some of its claims before the district
court. The Thunder Basin factors demonstrate that
Axon’s clearance process and ALJ challenges
represent “broad constitutional claims” not requiring
review of the “merits of individual” agency actions.
Latif, 686 F.3d at 1129. The district court was thus
wrong to dismiss them at the outset. In contrast,
Axon’s claim against the FTC’s adjudicatory structure,

App-35
at bottom, contests the agency’s antitrust
determinations and must be brought before the FTC.
A. Axon’s Due Process and Equal Protection
Challenge to the Clearance Process
Axon’s first constitutional challenge targets the
clearance process used by the FTC and the DOJ to
divide their overlapping jurisdictions to review
mergers and enforce antitrust laws. According to
Axon, the clearance process decides if companies must
answer to either the DOJ, with the prospect of a
federal lawsuit in district court, or the FTC, with its
administrative proceedings. Which agency has
purview over an industry can mean a world of
difference for the companies involved. For example,
unlike federal court proceedings, the FTC’s
administrative hearings do not trigger the protections
of the Federal Rules of Civil Procedure or Evidence.
Furthermore, the FTC administrative hearings are
presided over by an FTC Commissioner or ALJ rather
than an impartial Article III judge. Despite the
importance of the DOJ-FTC split, the clearance
process is, according to Axon, a “black box” that isn’t
codified in any statute, rule, or regulation. Axon
alleges that the clearance decision appears to be made
“by a coin flip.” Such an arbitrary process, Axon
asserts, violates due process and equal protection
under the Fifth Amendment.

App-36
Under the Thunder Basin factors, I would
conclude that the district court has jurisdiction over
this claim. 2
1.

Meaningful Review

Most fundamentally, the FTC Act provides
insufficient meaningful review of Axon’s clearance
process claim. Not all actions the FTC takes are
subject to Article III scrutiny. Indeed, the Act only
provides for court of appeals review of an FTC “cease
and desist” order. 15 U.S.C. §45(c). Accordingly,
without a cease-and-desist order, the FTC’s actions
are largely immune from judicial review. Moreover,
the Act limits available relief, allowing courts to grant
only a “decree affirming, modifying, or setting aside
[an FTC] order[.]” Id.
Under this statutory scheme, Axon’s claim might
never make it to an Article III judge. Axon challenges
the very process by which cases arrive at the FTC’s
doorstep rather than the DOJ’s. In other words, as
Axon sees it, the FTC and DOJ’s joint decision to
subject the company to the FTC’s jurisdiction is the
harm in and of itself. Cf. Seila Law LLC v. Consumer
Fin. Prot. Bureau, 140 S. Ct. 2183, 2196 (2020)
(holding that a person subject to an unconstitutional
agency’s power suffers from a “here-and-now” injury).
Under that theory of injury, Axon may not be able to
meaningfully pursue its constitutional claim.
The Supreme Court has already told us that
judicial review is insufficient when a statutory scheme
2 I limit my analysis to the second step of the Thunder Basin
inquiry since Axon acknowledges that the FTC Act provides for
exclusive agency jurisdiction over some claims.

App-37
only permits appeal of limited agency actions because
not every agency action is “encapsulated” in an
appealable order. Free Enterprise Fund, 561 U.S. at
490. Here, the interagency clearance process is
similarly not necessarily “encapsulated” in a ceaseand-desist order. The FTC, for instance, may decide to
drop its investigation of Axon, or Axon may settle or
prevail on the merits in the administrative
proceedings. In such circumstances, Axon will still
have been injured by the clearance process but have
no cease-and-desist order to appeal its claim. 3
Without a guaranteed vehicle for court review,
Axon’s only recourse is to intentionally lose before the
FTC to receive any assurance of Article III
adjudication of its clearance process claim. But, as the
Court has said, conditioning judicial review on
incursion of a harm is “tantamount to a complete
denial of [judicial] review.” McNary, 498 U.S. at 496.
Indeed, parties shouldn’t have to risk “severe
punishment” “before testing the validity of [a] law.”
Free Enterprise Fund, 561 U.S. at 490 (simplified). As
The majority concludes that if Axon prevails on the antitrust
merits, “that ends the dispute.” Maj. Op. 20 n.8. I respectfully
disagree. Winning on the antitrust merits does nothing to remedy
Axon’s independent injury of being subject to an unconstitutional
structure or procedure. In Free Enterprise Fund, the agency’s
investigation of the plaintiff “produced no sanction;”
nevertheless, the Court held that the firm was permitted to bring
its constitutional challenge against the PCAOB in district court.
561 U.S. at 490. That is because “a separation-of-powers violation
may create a ‘here-and-now’ injury” that is independent on the
agency’s merits determinations. Id. at 513; see also Seila Law,
140 S. Ct. at 2196 (recognizing the longstanding ability of
“private parties aggrieved by an official’s exercise of executive
power to challenge the official’s authority to wield that power”).
3

App-38
a result, I see no reason why Axon must “bet the farm”
to get its day in court. Id. 4
Furthermore, adequate relief is a hallmark of
meaningful review. See Elgin, 567 U.S. at 22. Here,
even if Axon’s claim reaches a court, the only relief
afforded under the FTC Act is modification or setting
aside of an FTC cease-and-desist order. 15 U.S.C.
§45(c). Such relief would not be adequate to address
the alleged harms of an unconstitutional clearance
process. If Axon raises a valid constitutional
infringement, it is entitled to relief appropriate to
remedy the violation, such as injunctive or declaratory
relief. See, e.g., Free Enterprise Fund, 561 U.S. at 513
(holding that the firm was entitled to declaratory relief
to ensure that it would be subject only to “a
constitutional agency”). And since appellate courts
“have no jurisdiction to grant … remedies” other than
those provided by Congress, Latif, 686 F.3d at 1128,
Axon could not obtain necessary relief under the Act.
The Act’s complete lack of appropriate remedies for
Axon cuts strongly against an implied congressional
intent to displace district court jurisdiction. See
Americopters, 441 F.3d at 735 (holding that district
courts have “residual jurisdiction” to hear claims
against an agency when the law does not grant the
The majority recognizes that Free Enterprise Fund requires a
“guaranteed” right of appeal to receive meaningful review. Maj.
Op. 20. But the majority doesn’t explain how Axon obtains such
review if the FTC chooses not to place Axon in administrative
proceedings or issue a cease-and-desist order as is required for
judicial review under the FTC Act. In such cases, the majority
must concede no judicial review is possible. I believe this violates
the holding of Free Enterprise Fund.
4

App-39
court of appeals jurisdiction over the appropriate form
of relief).
2.

Wholly Collateral

Axon’s clearance claim is also “wholly collateral”
to the administrative proceedings. A claim is not
wholly collateral when it is the “vehicle” by which a
party “seek[s] to reverse” an agency’s decision. Elgin,
567 U.S. at 22. Here, Axon challenges the FTC’s very
jurisdiction to investigate any antitrust claims, not
any particular FTC order or sanction. Indeed, as of the
filing of Axon’s complaint, the FTC had not
established any antitrust violation by Axon or issued
any cease-and-desist order. 5 But, as alleged by Axon,
the clearance process itself injures its rights
independent of any potential FTC sanctions for
antitrust violations. Thus, the clearance process claim
doesn’t serve as a “vehicle” to reverse an agency
decision. Id. As such, Axon’s claim most resembles
Free Enterprise Fund’s challenge to an independent
The majority suggests that Axon did not act quick enough.
The majority contends, if Axon filed its claims “early in the
investigation,” then it might have had a stronger case for district
court jurisdiction. Maj. Op. 29 n.11. Such a malleable test for
district court jurisdiction is seemingly unworkable. See Elgin,
567 U.S. at 15 (rejecting jurisdictional rules that rely on
“amorphous distinctions” and “hazy” lines). After all, how “early”
is early enough? Is the day before the FTC files its enforcement
action enough? Two weeks before? This “early enough” test
ignores Court precedent which focuses not on the timing of the
claim, but on the nature of the claim. See, e.g., Thunder Basin,
510 U.S. at 207 (looking to the three-factor test despite the claim
being “pre-enforcement”). More fundamentally, nothing in the
FTC Act suggests that Congress intended such an “early-in-theinvestigation” test.
5

App-40
board’s “existence” and is, therefore, “collateral” to any
FTC merits adjudication. 561 U.S. at 490.
Moreover, there is no danger that Axon’s claim is
a collateral attack on an individual agency
determination in disguise. Axon may still be
prosecuted for its putative violation of antitrust laws,
regardless of any district court litigation casting doubt
on the clearance process. In other words, whether the
clearance process complies with due process is wholly
collateral to whether Axon committed an antitrust
violation.
3.

Agency Expertise

Like in Free Enterprise Fund, Axon’s challenge to
the interagency clearance process is patently “outside
the Commission’s competence and expertise.” 561 U.S.
at 491. While the FTC possesses substantial expertise
in the antitrust field and historic experience with
particular industries, Axon’s claim doesn’t implicate
such expertise. Instead, it relies on principles of due
process and equal protection, which are “standard
questions” of constitutional law that “courts have no
disadvantage handling.” Id. (simplified). The FTC’s
expertise might illuminate the clearance process, its
origins, and its justifications, but it can’t shed
particular light on whether the process satisfies due
process and equal protection guarantees.
Axon’s claim is unlike the one in Elgin where
agency expertise could answer “threshold questions”
that may “obviate the need to address the
constitutional challenge.” Elgin, 567 U.S. at 22-23. In
Elgin, agency expertise was only relevant for
addressing “preliminary questions” which may have
demonstrated that the plaintiffs suffered no statutory

App-41
injury at all and disposed of the need to address the
constitutional question. Id. But here, Axon’s claim is a
“question[] of administrative law,” like that in Free
Enterprise Fund, 561 U.S. at 491, which are left for
courts to decide. Indeed, no FTC finding on an
antitrust question could negate the injury Axon
experienced from being subject to a putatively
unconstitutional clearance process. In other words,
the FTC’s expertise on antitrust matters can’t moot
Axon’s claimed injuries and so the constitutional
question must be reached regardless of any agency’s
determination.
*

*

*

Given that all three Thunder Basin factors
indicate that jurisdiction stripping would be
inappropriate here, I would reverse the district court’s
dismissal of the clearance process claim. 6
The majority contends that it is following “every other circuit
that has addressed a similar issue” in finding no district court
jurisdiction over any of Axon’s claims. Maj. Op. 5. First, if so,
those other decisions conflict with our court’s precedent. See
Mace, 34 F.3d at 858-60; Americopters, 441 F.3d at 735-36; Latif,
686 F.3d at 1128-29. Second, I am not so sure that every other
circuit agrees with the majority. The Fifth Circuit has recently
granted rehearing en banc in a directly analogous case and, thus,
has vacated a panel decision following the majority’s reasoning.
See Cochran v. SEC, 978 F.3d 975 (5th Cir. Oct. 30, 2020).
Finally, I find the dissents in several of those cases to be more
persuasive. See Cochran v. SEC, 969 F.3d 507, 519 (5th Cir. 2020)
(Haynes, J., dissenting) (distinguishing Elgin and Thunder Basin
because the parties there challenged “the constitutionality of a
substantive statute that gave rise to an administrative action”
rather than “the constitutional grounding of the agency
overseeing the proceedings.”); Tilton v. SEC, 824 F.3d 276, 298
(2d Cir. 2016) (Droney, J., dissenting) (“Forcing the appellants to
6

App-42
B. Axon’s Article II Challenge to FTC’s ALJs
Axon also alleges that the FTC’s ALJs are
unconstitutionally shielded from removal by the
Executive. The FTC is headed by five Commissioners,
nominated by the President and confirmed by the
Senate. 15 U.S.C. §41. The President may not remove
Commissioners during their seven-year terms except
for “inefficiency, neglect of duty, or malfeasance in
office.” Id. In turn, the Commissioners appoint ALJs
who can only be removed for good cause. See 5 U.S.C.
§7521(a), (b)(1). Axon asserts this is an impermissible
dual layer of protection from Executive control. See
U.S. Const. art. II, §1, cl. 1, 3. In this way, Axon’s claim
closely mimics the Article II argument made in Free
Enterprise Fund, 561 U.S. at 495-97 (holding that
Article II forbids providing two layers of tenure
protections to officers of the United States).
On initial consideration, it appears that Axon’s
complaint here is tied to the FTC’s merits
determination since it only sustains an injury upon an
ALJ sanction. But on closer inspection, that’s not the
case. According to Axon, its injury is rooted in the
violation of the separation of powers, apart from any
FTC antitrust penalty. I agree that the Constitution’s
structural provisions “protect[] the liberty of all
persons” by ensuring no government entity acts “in
excess of [its] delegated governmental power.” Bond v.
United States, 564 U.S. 211, 222 (2011). Thus, when
an agency violates this principle, “liberty is at stake,”
await a final Commission order before they may assert their
constitutional claim in a federal court means that by the time the
day for judicial review comes, they will already have suffered the
injury that they are attempting to prevent.”).

App-43
id., and it “create[s] a ‘here-and-now’ injury,” Free
Enterprise Fund, 561 U.S. at 513. See also Seila Law,
140 S. Ct. at 2196 (“[W]hen [a tenure protection]
provision violates the separation of powers it inflicts a
‘here-and-now’ injury on affected third parties that
can be remedied by a court.”). In other words, a
government agency inflicts injury on a person
whenever it subjects that person to unconstitutional
authority—regardless of whether a sanction is levied
by the agency. Free Enterprise Fund, 561 U.S. at 513.
Thus, even without an FTC finding of an antitrust
violation, Axon raises a cognizable injury by being
made to appear before a putative unconstitutional
officer.
With this understanding of Axon’s ALJ challenge,
its Thunder Basin analysis largely tracks that of the
clearance process claim, and, thus, it should not have
been precluded from district court jurisdiction. After
all, to guarantee Article III review of its ALJ
challenge, Axon would similarly have to incur the very
harms it seeks to avoid. The firm would need to be
subject to the ALJ, an officer it argues is
unconstitutionally insulated from Executive control,
and intentionally lose its case on the merits before the
FTC. Only then could a cease-and-desist order issue,
allowing Axon to litigate its constitutional injury
before an Article III court. But if Axon prevails on the
antitrust merits before the FTC, its ALJ claim will
never reach a federal judge and will never be reviewed
outside of the very agency it challenges. And even if
Axon does reach a court, the company could not obtain
injunctive or declaratory relief under the limited
remedies of the FTC Act. See 15 U.S.C. §45(c).

App-44
The constitutionality of the FTC ALJs is also
wholly collateral to the merits of Axon’s alleged
antitrust violation—each with distinct injuries and
separate remedies. For example, an Axon victory on
its ALJ claim would not be dispositive on any
allegation that it violated antitrust laws. Indeed, Axon
could still be prosecuted for violating antitrust laws
regardless of whether the ALJs’ tenure protection fails
to comply with the Constitution.
Finally, as with the clearance process claim,
whether the ALJs’ removal protections violate Article
II is a “standard question[] of administrative law,”
which doesn’t turn on statutory questions within the
FTC’s expertise. Free Enterprise Fund, 561 U.S. at
491. For example, no amount of antitrust expertise
can tell us whether ALJs must be directly removable
by the President. Nor are there threshold statutory
questions “squarely within” the FTC’s expertise that
“may obviate the need to address the constitutional
challenge.” Elgin, 567 U.S. at 22-23.
I would therefore hold that all three Thunder
Basin factors—meaningful review, wholly collateral,
and agency expertise—favor district court jurisdiction
on this claim. I would reverse the district court’s
dismissal of Axon’s Article II claim against the FTC
ALJs.
C. Axon’s Due Process Challenge to FTC’s
Investigatory,
Prosecutorial,
and
Adjudicative Functions
Axon finally contends that the FTC’s
administrative adjudicatory process violates due
process by combining the role of investigator,
prosecutor, and adjudicator within one agency.

App-45
Although Axon cloaks this claim as one about an
unconstitutional structure, at bottom, it is a complaint
about
the
agency’s
individualized
merits
determination. So, I agree that this claim is precluded
from district court review.
In Axon’s view, the FTC’s structure is “inherently
biased.” Under the FTC Act, the agency investigates
antitrust violations, see 15 U.S.C. §57b-1; it prosecutes
the enforcement action, see 16 C.F.R. §3.11; and then
it adjudicates any appeal from an ALJ’s initial
decision, id. §3.52. Axon asserts that its structure has
granted the FTC an “undisputed 100% win rate”
within the administrative process for the past 25
years. As a result, Axon believes it is a “virtual
certainty” that it will lose its case before the
Commission, which violates due process protections.
Although Axon maintains that the FTC is
unconstitutionally structured, what it really fears is
the FTC determining that it violated antitrust laws.
Unlike Axon’s other claims, a biased adjudicatory
process only injures Axon if it results in an
unfavorable order. Such a loss will necessarily be
encapsulated in an FTC sanction, which is directly
appealable to the circuit court and can be set aside,
affording Axon meaningful review and full relief. See
15 U.S.C. §45(c).
Since this claim falls squarely within the FTC’s
province and expertise and any injury flowing from
the alleged constitutional violation will be guaranteed
a court of appeals review, I would hold that all three
Thunder Basin factors—meaningful judicial review,
wholly collateral, and agency expertise—favor the

App-46
FTC’s exclusive jurisdiction here. I thus concur in
affirming the district court’s dismissal of this claim.
III.

Congress established the FTC’s administrative
process to adjudicate the merits of antitrust
enforcement actions. But Congress did not completely
eliminate the district court’s role in adjudicating
constitutional claims against the FTC. To be sure, for
some claims, when the constitutional issue is directly
intertwined with the agency’s individual merits
decision, the agency should resolve the matter in the
first instance. As Court precedent shows, Axon’s claim
of unconstitutional bias is one example of such a claim.
But when “[p]laintiffs raise broad constitutional
claims that do not require review of the merits,” our
precedent clearly permits parties to select their forum.
Latif, 686 F.3d at 1129. Such is the case with Axon’s
constitutional claims against the clearance process
and the FTC ALJs.
By forcing Axon’s claims into the FTC
administrative process, we effectively shut the
courtroom doors to a party seeking relief from alleged
constitutional infringements. Now, Axon’s only
recourse is to antagonize the FTC into prosecuting the
enforcement proceeding against it and then lose in
that forum—all the while, further subjecting the
company to the harm it seeks to avoid. The FTC Act
does not mandate this unfortunate result. Both the
Constitution and our precedent counsel against it, too.
For that reason, I respectfully dissent from the
dismissal of Axon’s clearance process and ALJ claims.

App-47
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 20-15662
________________
AXON ENTERPRISE, INC., a Delaware corporation,
v.

Plaintiff-Appellant,

FEDERAL TRADE COMMISSION, a federal
administrative agency; JOSEPH J. SIMONS; NOAH
PHILLIPS; ROHIT CHOPRA; REBECCA SLAUGHTER;
CHRISTINE WILSON, in their official capacities as
Commissioners of the Federal Trade Commission,
Defendants-Appellees.
________________
Filed: April 15, 2021
________________
Before: SILER *, LEE, and BUMATAY,
Circuit Judges.
________________
ORDER
________________
Judge Lee voted to deny the petition for rehearing
en banc, and Judge Siler recommended denying the
petition for rehearing en banc. Judge Bumatay would
vote to grant the petition for rehearing en banc. The
* The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App-48
full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App
P. 35. The petition for rehearing en banc is DENIED.

App-49
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________
No. CV-20-00014-PHX-DWL
________________
AXON ENTERPRISE INC.,
v.

Plaintiff,

FEDERAL TRADE COMMISSION, et al.,
Defendants.
________________
ORDER
________________
Filed: April 8, 2020
________________
INTRODUCTION
Pending before the Court is Plaintiff Axon
Enterprise, Inc.’s (“Axon”) motion for preliminary
injunction. (Doc. 15.)
Axon sells various technological tools, including
body-worn cameras, to police departments. In May
2018, Axon acquired one of its competitors. This
acquisition prompted the Federal Trade Commission
(“FTC”) to conduct an antitrust investigation. In
January 2020, just as the FTC was about to initiate a
formal administrative proceeding to challenge the
acquisition, Axon filed this lawsuit, which seeks to
enjoin the administrative proceeding based on three

App-50
constitutional claims: first, that the FTC’s structure
violates Article II of the Constitution because its
commissioners are not subject to at-will removal by
the President and its administrative law judges
(“ALJs”), who are appointed by its commissioners, are
also insulated from at-will removal; second, that the
FTC’s combined role of “prosecutor, judge, and jury”
during administrative proceedings violates the Due
Process Clause of the Fifth Amendment; and third,
that the FTC and the Antitrust Division of the U.S.
Department of Justice, which are both responsible for
reviewing the antitrust implications of acquisitions
but employ different procedures and substantive
standards when conducting such review, utilize an
arbitrary and irrational “clearance” process when
deciding which agency will review a particular
acquisition, in violation of the Equal Protection Clause
of the Fifth Amendment. (Doc. 15 at 6-15.)1
The constitutional claims Axon seeks to raise in
this case are significant and topical. Indeed, the
Supreme Court recently held oral argument in a case
that raises similar issues. Seila Law LLC v. Consumer
Fin. Prot. Bureau, No. 19-7. This Court, however, is
not the appropriate forum to address Axon’s claims. It
is “fairly discernable” from the FTC Act that Congress
intended to preclude district courts from reviewing the
type of constitutional claims Axon seeks to raise
here—instead, Axon must raise those claims during
1 In its reply, Axon clarifies that it “is not challenging the mere
fact of concurrent jurisdiction, but rather the arbitrary way in
which the agencies determine which of two vastly different (and
often outcome-determinative) procedures will be applied to a
particular company.” (Doc. 21 at 2 n.1.)

App-51
the administrative process and then renew them, if
necessary, when seeking review in the Court of
Appeals. Thus, this Court lacks subject matter
jurisdiction over this action, Axon’s request for a
preliminary injunction must be denied, and this action
must be dismissed.
BACKGROUND
I.

Factual Background

Axon, which was formerly known as TASER
International, Inc., is a Delaware corporation that
sells various technological tools, including body-worn
cameras and cloud-computing software, to police
departments. (Doc. 1 ¶¶ 13, 19-21; Doc. 15-2 ¶ 2.) In
May 2018, Axon acquired one of its competitors, Vievu.
(Doc. 1 ¶ 24.) The next month, the FTC notified Axon
that it was investigating the acquisition. (Id. ¶ 25.)
Axon cooperated with the investigation over the next
18 months. (Id. ¶ 26.) Axon contends that it “spent in
excess of $1.6 million responding to the FTC’s
investigational demands, including attorney and
expert fees, ESI production and related hosting and
third-party vendor fees and expenses.” (Doc. 15-2 at 3
¶ 5.)
Axon contends that, at the conclusion of the
investigation, the FTC gave it a choice. First, it could
agree to a “blank check” settlement that would rescind
its acquisition of Vievu and transfer some of its
intellectual property to the newly restored Vievu.
(Doc. 1 ¶ 27.) According to Axon, the FTC’s “vision”
was to turn Vievu into a “clone” of Axon—“something
Vievu never was nor could be without impermissible
government regulation.” (Id.) Second, if Axon declined

App-52
those terms, the FTC would pursue an administrative
complaint against Axon. (Id.)
II.

Procedural History

On January 3, 2020, Axon filed this lawsuit. (Doc.
1). In its complaint, Axon outlines the factual history
discussed above and alleges a violation of its Fifth
Amendment rights to due process and equal protection
(id. ¶¶ 57-60), alleges that the FTC’s structure violates
Article II of the Constitution (id. ¶¶ 61-62), and seeks
a declaration that its acquisition of Vievu didn’t
violate any antitrust laws (id. ¶¶ 63-69).
Also on January 3, 2020 (but later that day), the
FTC filed an administrative complaint challenging
Axon’s acquisition of Vievu. (Doc. 15 at 2 n.1.) An
evidentiary hearing in the administrative proceeding
was originally scheduled for May 19, 2020. (Doc. 22 at
2.) That hearing has now been continued until late
June 2020.
On January 9, 2020, Axon filed a motion for a
preliminary injunction, seeking to enjoin further FTC
proceedings against it. (Doc. 15.)
On January 23, 2020, the FTC filed an opposition
to Axon’s motion. (Doc. 19.) The FTC relegated the
merits of Axon’s constitutional claims to a footnote and
instead focused on whether the Court possesses
subject matter jurisdiction. (Doc. 19 at 1, 14 n.12).
On January 30, 2020, Axon filed a reply. (Doc. 21.)
That same day, Axon filed a motion for expedited
consideration. (Doc. 22.) Over the FTC’s opposition
(Doc. 23), the Court granted the motion and scheduled
oral argument for April 1, 2020. (Doc. 24.)

App-53
On March 10, 2020 the Court issued a tentative
order. (Doc. 29.)
On March 27, 2020, the New Civil Liberties
Alliance (“NCLA”) filed a motion for leave to submit
an amicus brief in support of Axon. (Doc. 32.) That
motion was granted. (Doc. 33.)
On April 1, 2020, the Court heard oral argument.
(Doc. 39.) 2
On April 2, 2020, Axon supplemented the record
by filing certain documents generated during the
administrative proceeding. (Doc. 40.)
ANALYSIS

“Subject-matter limitations on federal jurisdiction
serve institutional interests. They keep the federal
courts within the bounds the Constitution and
Congress have prescribed.” Ruhrgas AG v. Marathon
Oil Co., 526 U.S. 574, 583 (1999). “[C]ourts have an
‘independent obligation’ to police their own subject
matter jurisdiction.” Animal Legal Def. Fund v. U.S.
Dep’t of Agric., 935 F.3d 858, 866 (9th Cir. 2019)
(citation omitted). See also Fed. R. Civ. Proc. 12(h)(3)
(“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the
action.”).
In general, district courts “have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.”
2 Due to the COVID-19 pandemic, the Court allowed counsel
for the FTC and NCLA to attend the hearing telephonically.
(Docs. 31, 34.) Additionally, the Court allowed media
organizations and members of the public to listen to the hearing
telephonically. (Doc. 37.)

App-54
28 U.S.C. §1331. This includes the authority to
“declare the rights and other legal relations of any
interested party seeking such a declaration.” Id.
§2201. “This grant of jurisdiction, however, is not
absolute.” Kerr v. Jewell, 836 F.3d 1048, 1057 (9th Cir.
2016). Among other things, Congress can “preclude[]
district court jurisdiction” over claims pertaining to
the conduct of an administrative agency by creating a
review framework that evinces a “fairly discernable”
intent to require such claims “to proceed exclusively
through the statutory review scheme.” Id. at 1057-58
(citation omitted). See also Bennett v. SEC, 844 F.3d
174, 178 (4th Cir. 2016) (“Congress can … impliedly
preclude jurisdiction by creating a statutory scheme of
administrative adjudication and delayed judicial
review in a particular court.”).
The issue here is whether Congress, by enacting
the FTC Act, intended to require constitutional
challenges to the FTC’s structure and processes to be
brought via the FTC Act’s adjudicatory framework. If
so, this Court lacks subject matter jurisdiction to
entertain Axon’s claims.
I.

Background Law

On three occasions between 1994 and 2012, the
Supreme Court addressed whether Congress’s
enactment of a scheme of administrative adjudication
should be interpreted as an implicit decision by
Congress to preclude district court jurisdiction.
Although none of those decisions involved the FTC
Act, they control the analysis here. Cf. Bennett, 844
F.3d at 178-81 (identifying these cases as “the
trilogy”).

App-55
The first decision, Thunder Basin Coal Co. v.
Reich, 510 U.S. 200 (1994), addressed the preclusive
effect of the Federal Mine Safety and Health
Amendments Act of 1977 (“Mine Act”). Thunder Basin,
a coal company, objected to a Mine Act regulation that
required it to post the names of certain union
representatives. Id. at 203-04. Rather than seek
review of the regulation through the Mine Act’s
judicial-review scheme, which contemplates that
“[c]hallenges to enforcement [will be] reviewed by the
Federal
Mine
Safety
and
Health
Review
Commission … and by the appropriate United States
court of appeals,” Thunder Basin filed a lawsuit in
federal district court in which it argued that the Mine
Act’s review scheme violated its due process rights
under the Fifth Amendment. Id. at 204-06. The
district court issued an injunction in Thunder Basin’s
favor but the Supreme Court reversed, concluding
that the district court lacked subject matter
jurisdiction over the action. Id. at 205-07.
The Court held that when a statutory scheme,
such as the Mine Act, “allocate[s] initial review to an
administrative body” and authorizes only “delayed
judicial review,” courts must analyze three factors—
(1) “the statute’s language, structure, and purpose,”
(2) “its legislative history,” and (3) “whether the claims
can be afforded meaningful review”—when assessing
whether Congress’s intent to “preclude initial judicial
review” can be “fairly,” if impliedly, “discerned” from
the statutory scheme. Id. at 207. The Court then
analyzed these factors and concluded that all three
supported a finding of preclusion.

App-56
First, the Court noted that the Mine Act creates a
“detailed structure” for regulated parties to seek
review of enforcement activity under the Act—a mine
operator is entitled to challenge an adverse agency
order before an ALJ, then seek review of the ALJ’s
order before the Federal Mine Safety and Health
Review Commission, and then, if necessary, seek
review of any adverse decision by the Commission in
a federal Court of Appeals. Id. at 207-08. This
structure, the Court concluded, “demonstrates that
Congress intended to preclude challenges such as the
present one.” Id. at 208. The Court also noted that the
Mine Act contains provisions that enable the
Secretary of Labor (who is responsible for enforcing
the Mine Act) to file an action in district court when
seeking certain types of relief. Id. at 209. Because
“[m]ine operators enjoy no corresponding right,” the
Court concluded these provisions served as further
proof of Congress’s intent to preclude. Id.
Second, the Court stated that “[t]he legislative
history of the Mine Act confirms this interpretation.”
Id. at 209-11.
Third, the Court addressed whether a finding of
preclusion would result, “as a practical matter,” in the
elimination of Thunder Basin’s ability “to obtain
meaningful judicial review” of its claims. Id. at 213
(quotation omitted). The Court concluded that no such
risk was present because Thunder Basin’s “statutory
and constitutional claims … can be meaningfully
addressed in the Court of Appeals.” Id. at 215. In
reaching this conclusion, the Court observed that
“[t]he Commission has addressed constitutional
questions in previous enforcement proceedings” but

App-57
clarified that, “[e]ven if this were not the case,” the
availability of eventual review by an appellate court
was sufficient. Id.
The second component of the trilogy, Free
Enterprise Fund v. Public Co. Accounting Oversight
Bd, 561 U.S. 477 (2010), addressed the preclusive
effect of the Sarbanes-Oxley Act of 2002 (“the
Sarbanes–Oxley Act”) and its interaction with the
Securities Exchange Act. Among other things, the
Sarbanes–Oxley Act created an entity called the
Public Company Accounting Oversight Board
(“PCAOB”), which was tasked with providing “tighter
regulation of the accounting industry.” Id. at 484. The
PCAOB was composed of five members who were
appointed by the Securities and Exchange
Commission (“the Commission”). Id. The PCAOB’s
broad regulatory authority included enforcing not only
the Commission’s rules, but also “its own rules,” and
it possessed the authority to “issue severe sanctions in
its disciplinary proceedings, up to and including the
permanent revocation of a firm’s registration, a
permanent ban on a person’s associating with any
registered firm, and money penalties of $15 million.”
Id. at 485.
The plaintiff in Free Enterprise Fund was a
Nevada accounting firm that been investigated by the
PCAOB and then criticized in a report issued by the
PCAOB. Id. at 487. In a lawsuit filed in federal district
court, the accounting firm argued that the PCAOB’s
structure was unconstitutional because its board
members, as well as the Commission members who
appointed them, were shielded from Presidential
control. Id. The district court concluded it had subject

App-58
matter jurisdiction over the lawsuit but rejected the
accounting firm’s constitutional claim on the merits.
Id. at 488. The Supreme Court reversed, agreeing with
the district court’s jurisdictional analysis but
concluding that, on the merits, the PCAOB’s structure
was unconstitutional.
When addressing the jurisdictional issue, the
Court cited Thunder Basin as supplying the relevant
standards but concluded that, under those standards,
jurisdiction was not precluded. Id. at 489-91. Central
to the Court’s analysis was the fact that the relevant
adjudicatory framework didn’t provide for judicial
review over all of the PCAOB’s activities. Specifically,
the Commission was only empowered “to review any
[PCAOB] rule or sanction.” Id. at 489. Commission
action, in turn, could receive judicial review under 15
U.S.C. §78y. Id. This structure was underinclusive,
the Court stated, because it “provides only for judicial
review of Commission action, and not every Board
action is encapsulated in a final Commission order or
rule.” Id. Put another way, the Court did “not see how
[the accounting firm] could meaningfully pursue [its]
constitutional claims” because the conduct it wished to
challenge (e.g., the PCAOB’s release of the critical
report) “is not subject to judicial review.” Id. at 489-90.
Thus, the Court concluded that Congress did not
intend to “strip the District Court of jurisdiction over
these claims.” Id. at 491.
The final component of the trilogy, Elgin v. Dep’t
of Treasury, 567 U.S. 1 (2012), addressed the
preclusive effect of the Civil Service Reform Act of
1978 (“CSRA”). The CSRA is a “comprehensive system
for reviewing personnel action taken against federal

App-59
employees.” Id. at 5 (quotation omitted). Under the
CSRA, an employer seeking to terminate (or pursue
certain other adverse employment actions against) a
covered employee must provide notice, representation,
an opportunity to respond, and a reasoned decision. Id.
at 5-6. An employee who disagrees with the agency’s
decision may seek review by the Merit Systems
Protection Board (“MSPB”). Id. at 6. And an employee
who disagrees with the MSPB’s decision may seek
judicial review in the Federal Circuit. Id.
In Elgin, a male employee was terminated
because he hadn’t registered with the Selective
Service. Id. at 6-7. The employee appealed to the
MPSB, arguing that the statute requiring men (but
not women) to register with the Selective Service is
unconstitutional, but the employee didn’t seek further
review in the Federal Circuit after the MSPB rejected
his claim—instead, he (and others) filed a lawsuit in
federal district court raising the same constitutional
challenge and requesting various forms of equitable
relief, including reinstatement. Id. The district court
concluded it had jurisdiction to resolve the
constitutional claim but the Supreme Court reversed,
holding that “the CSRA precludes district court
jurisdiction over petitioners’ claims even though they
are constitutional claims for equitable relief.” Id. at 8.
The Court began by reaffirming that, under
Thunder Basin, “the appropriate inquiry” when
evaluating whether Congress intended to preclude
district court jurisdiction “is whether it is ‘fairly
discernible’ from the [statute] that Congress intended
[litigants] to proceed exclusively through the statutory
review scheme, even in cases in which the [litigants]

App-60
raise constitutional challenges to federal statutes.” Id.
at 8-10. Next, the Court “examined the CSRA’s text,
structure, and purpose.” Id. at 10-11. After discussing
the various forms of review available under the
statute, the Court concluded that “[g]iven the
painstaking detail with which the CSRA sets out the
method for covered employees to obtain review of
adverse employment actions, it is fairly discernible
that Congress intended to deny such employees an
additional avenue of review in district court.” Id. at 1112. The Court also noted that the CSRA expressly
allows employees to assert one particular type of claim
in federal district court. Id. at 13 (citing 5 U.S.C.
§7702(b)(2)). The existence of this provision, the Court
stated, “demonstrates that Congress knew how to
provide alternative forums for judicial review based on
the nature of an employee’s claim. That Congress
declined to include an exemption … for challenges to
a statute’s constitutionality indicates that Congress
intended no such exception.” Id.
The Court also addressed whether a preclusion
finding would effectively “foreclose all meaningful
judicial review” of the plaintiffs’ constitutional claim.
Id. at 15-21 (citing Free Enterprise Fund, 561 U.S. at
489). The Court concluded that such a risk was not
present, even though “the MSPB has repeatedly
refused to pass upon the constitutionality of
legislation,” because the Federal Circuit, “an Article
III court fully competent to adjudicate [constitutional]
claims,” could address those constitutional claims
during the final stage of the statutory review process.
Id. at 16-18. The Court also rejected the notion that
the Federal Circuit would be hamstrung by an
inadequately developed record when conducting this

App-61
review, explaining that “[e]ven without factfinding
capabilities, the Federal Circuit may take judicial
notice of facts relevant to the constitutional question”
and noting that “we see nothing extraordinary in a
statutory scheme that vests reviewable factfinding
authority in a non-Article III entity that has
jurisdiction over an action but cannot finally decide
the legal question to which the facts pertain.” Id. at
19-21.
II. Whether It Is “Fairly Discernable” From The
FTC Act That Congress Intended To
Preclude District Court Jurisdiction Over
Axon’s Constitutional Challenges
With this backdrop in mind, the Court will turn to
the FTC Act. Nothing in the FTC Act expressly divests
district courts of jurisdiction to entertain
constitutional claims of the sort raised by Axon in this
action, but Thunder Basin, Free Enterprise Fund, and
Elgin all recognize that Congress may implicitly
preclude such jurisdiction through the enactment of
an administrative review scheme. The question here
is whether such intent is “fairly discernable” from the
FTC Act. Thunder Basin, 510 U.S. at 207 (citation
omitted).
A. Text, Structure, And Purpose Of The
FTC Act

Under Thunder Basin and its progeny, the first
factor to consider when assessing “[w]hether a statute
is intended to preclude initial judicial review” is “the
statute’s language, structure, and purpose.” Thunder
Basin, 510 U.S. at 207. This factor strongly supports a
finding of preclusion in this case.

App-62
The text and structure of the FTC Act closely
resemble those of the Mine Act, which was the
statutory scheme at issue in Thunder Basin. The FTC
Act sets out a detailed scheme for preventing the use
of unfair methods of competition. 15 U.S.C. §45(a)-(b).
Additionally, the FTC Act’s enforcement provisions
create timelines and mechanisms for adjudicating
alleged violations that are similar to those outlined in
the Mine Act. Compare 15 U.S.C. §45(b) with 30
U.S.C. §815. Finally, and most important, the FTC
Act’s judicial review process is similar to the Mine
Act’s, up to and including conferring “exclusive
jurisdiction” upon the relevant Court of Appeals to
affirm, modify, or set aside final agency orders.
Compare 15 U.S.C. §45(c)-(d) with 30 U.S.C. §816(a).
In Thunder Basin, the Supreme Court held that this
type of “detailed structure” suggested “that Congress
intended to preclude challenges such as the present
one.” 510 U.S. at 208. Similarly, in Elgin, the Supreme
Court held when a statutory scheme sets out in
“painstaking detail” the process for aggrieved parties
to obtain review of adverse decisions, “it is fairly
discernible that Congress intended to deny such
employees an additional avenue of review in district
court.” 567 U.S. at 11-12. The FTC Act has a “detailed
structure” that includes “painstaking detail”
concerning how to seek review, so the same inference
arises here. Cf. Hill v. SEC, 825 F.3d 1236, 1242 (11th
Cir. 2016) (concluding that a review scheme
“materially indistinguishable” from that in Thunder

App-63
Basin demonstrated congressional intent to preclude
district court jurisdiction). 3
The FTC Act also contains a provision authorizing
the FTC (but not regulated parties) to file a lawsuit in
federal district court. See 15 U.S.C. §53(a)
(authorizing the FTC to “bring suit in a district court
of the United States” when certain conditions are
satisfied). In Thunder Basin, the Supreme Court
stated that an inference of preclusive effect arose
because the Mine Act allowed the Secretary of Labor
to file certain claims in district court but “[m]ine
operators enjoy no corresponding right.” 510 U.S. at
209. See also Elgin, 567 U.S. at 13 (provision allowing
employees to file claims in district court showed that
“Congress knew how to provide alternative forums for
judicial review based on the nature of an employee’s
claim. That Congress declined to include an
exemption … for challenges to a statute’s
constitutionality indicates that Congress intended no
such exception.”). So, too, here.
Finally, the purpose of the FTC Act suggests that
Congress intended to preclude district court
jurisdiction. Congress intended the FTC to act as a
successor to the Interstate Commerce Commission
and enforce “its broad mandate to police unfair
business conduct.” FTC v. AT&T Mobility LLC, 883
F.3d 848, 854 (9th Cir. 2018). To that end, “Congress
deliberately gave the FTC broad enforcement powers.”
3 In its reply, Axon points out several ways in which the text,
structure, and purpose of the FTC Act arguably differ from the
text, structure, and purpose of the CSRA. (Doc. 21 at 4-5.)
However, Axon does not attempt to make such a showing with
respect to the Mine Act.

App-64
Id. This is similar to the Mine Act’s purpose of
“strengthen[ing] and streamlin[ing] health and safety
enforcement requirements,” Thunder Basin, 510 U.S.
221, as well as the CSRA’s purpose of introducing an
“integrated scheme of administrative and judicial
review” to “replace an outdated patchwork of statutes
and rules,” Elgin, 567 U.S. at 13-14 (citation omitted).
In other words, where Congress acts to introduce a
statutory scheme that brings order from chaos, it
indicates that Congress intended to preclude district
court jurisdiction. The FTC Act was such an attempt. 4
…
…
B. Legislative History Of The FTC Act

Thunder Basin suggests the second relevant
preclusion factor is the underlying statute’s legislative
history. 510 U.S. at 207. However, Justice Scalia,
joined by Justice Thomas, issued a concurring opinion
This conclusion is bolstered by the slate of recent cases
concluding that the SEC’s authorizing legislation precludes
district court jurisdiction over constitutional challenges to the
SEC’s structure. See, e.g., Bennett, 844 F.3d at 181-82; Hill, 825
F.3d at 1242-1245; Tilton v. SEC, 824 F.3d 276, 282-81 (2d Cir.
2016); Jarkesy v. SEC, 803 F.3d 9, 16-17 (D.C. Cir. 2015); Bebo v.
SEC, 799 F.3d 765 (7th Cir. 2015). Although those decisions are
not binding here, their logic is persuasive. The review provisions
of the FTC Act are “materially indistinguishable,” Hill, 825 F.3d
at 1242, and “nearly identical,” Jarkesy, 803 F.3d at 16, to those
contained in 15 U.S.C. § 78y, which itself resembles the review
provisions in the Mine Act. Thus, the Court is not persuaded by
the NCLA’s colorful argument that Bennett, Hill, Tilton, Jarkesy,
and Bebo were all wrongly decided and this Court should not
“follow the herd of courts off the cliff in disregarding the
jurisdictional significance of Free Enterprise.” (Doc. 32-2 at 21.)
4

App-65
in Thunder Basin objecting to the consideration of
legislative history as part of the preclusion analysis,
stating that such consideration only “serve[d] to
maintain the illusion that legislative history is an
important factor in this Court’s deciding of cases, as
opposed to an omnipresent makeweight for decisions
arrived at on other grounds.” Id. at 219 (Scalia, J.,
concurring).
The Supreme Court’s subsequent decisions in this
area, Free Enterprise Fund and Elgin, did not address
(much less focus on) legislative history, and the
Supreme Court has issued subsequent opinions in
other contexts that reject the use of legislative history
as a legitimate interpretative tool. See, e.g., Epic Sys.
Corp. v. Lewis, 138 S.Ct. 1612, 1631 (2018)
(“[L]egislative history is not the law. It is the business
of Congress to sum up its own debates in its
legislation, and once it enacts a statute [w]e do not
inquire what the legislature meant; we ask only what
the statute means.”) (citations and internal quotation
marks omitted). Thus, it is unclear whether this
portion of Thunder Basin retains validity. Indeed, the
FTC does not mention legislative history in its
response brief (Doc. 19) and Axon barely mentions it
its reply (Doc. 21 at 4 [criticizing the FTC for failing to
“point to legislative history for the FTC Act that is
similar to the CSRA’s”]).
In any event, to the extent legislative history
remains a relevant consideration, and to the extent it
is possible to draw any meaningful conclusions from
the FTC Act’s legislative history (which the Court
doubts), it tends to support the inference that
Congress sought to preclude district court jurisdiction

App-66
over the type of claims presented here. Judicial review
of final, and only final, FTC actions was a component
of the FTC Act from its earliest iterations. See Marc
Winerman, The Origins of the FTC: Concentration,
Cooperation, Control, and Competition, 71 Antitrust
L. J. 1, 4 (2003). The debate focused on the breadth of
judicial review and settled on the standard contained
in §45 to this day: deference to the FTC’s findings of
fact, but otherwise silent. Id. at 5, 76-77, 80
(discussing the FTC Act’s proponents’ “essential faith
in the workings of a commission”), 90-92. It does not
appear Congress ever considered amending the FTC
Act to route complaints through any process other
than administrative proceedings. Id.
C. Availability Of Meaningful Review And
Associated Considerations

In Thunder Basin, the Supreme Court identified
the third preclusion factor as “whether the claims can
be afforded meaningful review” and then addressed—
in the portion of the opinion concerning this factor—
whether the claims were “wholly collateral” to the
statute’s review provisions and whether the claims fell
outside the agency’s expertise. 510 U.S. at 207, 21215. However, in both Elgin and Free Enterprise Fund,
the Supreme Court seemed to frame the third factor
as a conjunctive, three-part test involving
consideration of (1) whether a finding of preclusion
would foreclose all meaningful judicial review; (2)
whether the suit is “wholly collateral” to a statute’s
review provisions; and (3) whether the claims are
“outside the agency’s expertise.” Elgin, 567 U.S. at 1516; Free Enterprise Fund, 561 U.S. at 489-90. It is

App-67
therefore unclear whether these are distinct factors or
simply different ways of addressing the same thing.
Although the Ninth Circuit has not resolved this
issue, other appellate courts have recognized its
“unsettled” nature and concluded that “the most
critical thread in the case law is … whether the
plaintiff will be able to receive meaningful judicial
review without access to the district courts.” Bebo, 799
F.3d at 774. See also Hill, 825 F.3d at 1245 (“We agree
with the Second and Seventh Circuits that the first
factor—meaningful judicial review—is ‘the most
critical thread in the case law.’”) (citation omitted).
The Court agrees and will follow the same approach
here.
1.

Availability Of Meaningful Review

Axon’s overarching argument is that this case “is
materially indistinguishable” from Free Enterprise
Fund and that “the FTC Act affords no meaningful
review of Axon’s claims outside this lawsuit.” (Doc. 21
at 2-5.) This argument is unavailing.
As noted, Free Enterprise Fund focused on the fact
that the PCAOB could engage in some forms of
regulatory activity, including the issuance of reports,
that were effectively immune from judicial review due
to a mismatch in the administrative review scheme—
the SEC could only review a “rule or sanction”
promulgated by the PCAOB, “and not every Board
action is encapsulated in a final Commission order or
rule.” 561 U.S. at 489.
This sort of mismatch is not present under the
FTC Act, at least with respect to the constitutional

App-68
claims Axon seeks to raise here. 5 Fundamentally,
Axon believes the FTC shouldn’t be allowed to
investigate or challenge its acquisition of Vievu. Yet
these are claims that Axon can present during the
pending administrative proceeding—indeed, Axon has
now presented them 6—and then renew, if necessary,
when seeking review of the FTC’s final cease-anddesist order in a federal appellate court. Critically,
Axon acknowledges that it “could, in theory, raise its
constitutional claims on appeal from an adverse
Commission order” and merely argues that the
availability of such review “is irrelevant” because “the
Commission rules do not allow Axon to depose the
DOJ officials who participated in the clearance
process without first getting the permission of the
FTC-appointed ALJ” and “there will be no guarantee
of an administrative record that will allow a reviewing
court to decide those claims.” (Doc. 21 at 7-8.) But
these are essentially the same arguments the
Supreme Court rejected in Thunder Basin and Elgin,
which hold that the eventual availability of review in
a federal appellate court—even if preceded by
litigation before administrative bodies that refused to
During oral argument, Axon emphasized that the Court must
conduct an independent preclusion analysis as to each of its three
constitutional claims. The Court has done so and concludes, for
the reasons discussed below, that Axon may obtain meaningful
review of each claim through the FTC’s administrative
framework, that none of the three claims is wholly collateral to
the FTC Act’s review provisions, and that the FTC’s agency
expertise could be brought to bear on each claim.
5

6 See FTC Doc. No. D9389, Answer and Defenses of Respondent
Axon Enter. Inc., Affirmative Defenses 14-18. This document is
available here.

App-69
consider or develop the constitutional claims—is
sufficient. Thunder Basin, 510 U.S. at 213-15 (finding
of preclusion warranted because Thunder Basin’s
“statutory and constitutional claims … can be
meaningfully addressed in the Court of Appeals,”
“[e]ven if” the agency has a track record of refusing to
consider such claims during the administrative
proceeding); Elgin, 567 U.S. at 16-21 (no risk that
finding of preclusion would foreclose meaningful
review, even though “the MSPB has repeatedly
refused to pass upon the constitutionality of
legislation,” because the Federal Circuit, “an Article
III court fully competent to adjudicate [constitutional]
claims,” could address those claims during the final
stage of the statutory review process or remand to the
MSPB with instructions to receive the necessary
evidence).
Similarly, here, if the FTC issues an adverse
decision and Axon seeks further review, the Ninth
Circuit can take judicial notice of facts that bear upon
Axon’s constitutional claims. Singh v. Ashcroft, 393
F.3d 903, 905 (9th Cir. 2004) (holding that, even
though a statute limited the Ninth Circuit to
reviewing the administrative record, “it is nonsense to
suppose that we are so cabined and confined that we
cannot exercise the ordinary power of any court to take
notice of facts that are beyond dispute”). And if the
facts needed by the Ninth Circuit are beyond judicial
notice, the FTC Act specifically provides that “the
court may order such additional evidence to be taken
before the [FTC] and to be adduced upon the hearing
in such manner and upon such terms and conditions
as to the court may seem proper.” 15 U.S.C. §45(c). In
other words, “there is nothing extraordinary in a

App-70
statutory scheme that vests reviewable authority in a
non-Article III entity that has jurisdiction over an
action but cannot finally decide the legal question to
which the facts pertain.” Elgin, 567 U.S. at 19. See also
Bank of La. v. FDIC, 919 F.3d 916, 925-928 (5th Cir.
2019) (rejecting claim that statute did not provide for
meaningful judicial review because the administrative
proceedings only allowed “limited discovery”).
Axon attempts to escape this conclusion by
narrowly focusing on particular aspects of the FTC’s
conduct and arguing that those aspects are effectively
immune from judicial review. For example, Axon
argues that “the clearance decision, which put the
FTC, rather than the DOJ, in charge of the
Axon/Vievu merger,” was an effectively unreviewable
decision that “caused real harm before any
administrative action was filed.” (Doc. 21 at 6.) Axon
also contends in a footnote that the mere fact of “being
regulated” by the FTC is a cognizable injury. (Id. at 6
n.4.)
The problem with these arguments is that they
are divorced from the facts of this case. Even assuming
arguendo that a company that was investigated by the
FTC for acquiring a competitor, spent money
complying with the FTC’s investigative demands, and
ultimately persuaded the FTC not to oppose the
acquisition might lack an effective mechanism for
challenging the constitutionality of the FTC’s
investigatory effort (because there would be no
administrative proceeding in which to raise those
claims), Axon stands in different shoes here. It didn’t
file this lawsuit in mid-2018, upon the FTC’s initiation
of the investigation. Instead, it filed suit 18 months

App-71
later, mere hours before the FTC initiated an
administrative proceeding against it (which Axon was
apparently racing to the courthouse to beat). Thus,
unlike the accounting firm in Free Enterprise Fund,
which had its reputation impugned by a critical report
issued by the PCAOB but could not challenge that
report in any subsequent administrative proceeding,
here Axon can raise (and has raised) all of its
constitutional challenges, including its challenge to
the clearance process, during the FTC administrative
proceeding 7 and may renew those challenges when
seeking review by a federal appellate court. See 15
U.S.C. §45(c)-(d) (an entity dissatisfied with an FTC
cease-and-desist order may seek review in the court of
appeals “within any circuit where the method of
competition or the act or practice in question was used
or where such person, partnership, or corporation
resides or carries on business,” and the appellate court
thereafter has exclusive jurisdiction to “affirm,
Following oral argument, Axon filed documents showing that
the attorneys representing the FTC in the administrative
proceeding have refused to comply with Axon’s requests for
discovery pertaining to the FTC/DOJ clearance process. (Doc. 40.)
These documents do not alter the “meaningful review” analysis
for two reasons. First, the documents only reflect the existence of
a discovery dispute between counsel that has not yet been
brought to the ALJ’s attention. The ALJ could, at least
theoretically, side with Axon and order the FTC’s counsel to
produce the requested discovery materials. Second, even if Axon
is barred from seeking clearance-related discovery during the
administrative proceeding, Thunder Basin and Elgin hold that
the appellate courts’ eventual ability to consider constitutional
claims during the final stage of the review process and, if
necessary, remand for additional fact-finding means that
“meaningful review” remains available.
7

App-72
enforce, modify,
Commission”).

or

set

aside

orders

of

the

Axon also contends that the absence of effective
judicial review is demonstrated by the fact that it (like
the accounting firm in Free Enterprise Fund) filed this
lawsuit before the initiation of administrative
proceedings. (Doc. 21 at 3 & n.3.) This argument
overlooks that the plaintiff in Thunder Basin also filed
a pre-enforcement challenge, yet the Supreme Court
still concluded that conferring jurisdiction upon the
district court would “be inimical to the structure and
purpose” of the comprehensive statutory review
scheme. Thunder Basin, 510 U.S. at 781. Free
Enterprise Fund did not overrule Thunder Basin on
this point. 561 U.S. at 490-91. See also Hill, 825 F.3d
at 1249 (“[I]t makes no difference that the Gray
respondents filed their complaint in the face of an
impending, rather than extant, enforcement action.
The critical fact is that the Gray respondents can seek
full postdeprivation relief under §78y.”); Great Plains
Coop v. Commodity Futures Trading Comm’n, 205
F.3d 353, 355 (8th Cir. 2000) (“Great Plains’s
complaint is an impermissible attempt to make an
‘end run’ around the statutory scheme. Allowing the
target of an administrative complaint simply to file for
an injunction in a federal district court would … allow
the plaintiff to short-circuit the administrative review
process and the development of a detailed factual
record by the agency.”).
Finally, the NCLA identifies three cases—(1)
Lucia v. SEC, 138 S. Ct. 2044 (2018), (2) McNary v.
Haitian Refugee Ctr., Inc., 498 U.S. 479 (1991), and (3)
Veterans for Common Sense v. Shinseki, 678 F.3d 1013

App-73
(9th Cir. 2012)—as purportedly showing that district
courts possess jurisdiction to resolve the sort of
constitutional challenges Axon seeks to raise here
(Doc. 32-2). 8 All three decisions are easily
distinguishable.
In Lucia, the petitioner had been charged with
securities law violations by the SEC. 138 S.Ct. at
2049-50. During the ensuing administrative
proceeding, Lucia sought to raise a constitutional
challenge—he argued the SEC ALJ presiding over his
case hadn’t been appointed in the manner required by
the Appointments Clause of Article II of the
Constitution. Id. This challenge went nowhere during
the administrative proceeding (which resulted in the
imposition of a $300,000 fine and a lifetime ban from
the securities industry), but Lucia renewed it when
seeking review by the D.C. Circuit (which also rejected
it) and again when seeking review in the Supreme
Court. Id. at 2050-51. The Supreme Court agreed with
Lucia on the merits of his Appointments Clause claim,
id. at 2051-55, and then stated that “[t]he only issue
left is remedial.” Id. at 2055. Because Lucia had raised
a “timely challenge” by “contest[ing] the validity of
[the ALJ’s] appointment before the Commission, and
continued pressing that claim in the Court of Appeals
and [the Supreme Court],” the Court concluded he was
entitled to a new hearing before a different, properlyappointed ALJ. Id. at 2055-56.
It is curious that the NCLA views Lucia as
supporting Axon’s jurisdictional claims. Unlike Axon,
8 Axon did not cite Lucia or Shinseki in its motion or reply but
did include one citation to McNary. (Doc. 15 at 11.)

App-74
the petitioner in Lucia didn’t file a preemptive lawsuit
in federal court when he learned the SEC would be
pursuing an administrative proceeding against him.
Instead, he raised his constitutional claims during the
administrative proceeding and then renewed them
when seeking review of the agency’s final decision in
an appellate court. Indeed, the Supreme Court
identified his conscientious compliance with the
requirements of the administrative-review scheme as
a reason why he was entitled to relief. Although Lucia
and his counsel may, understandably, view the relief
that was ultimately granted in Lucia as less-thanmeaningful in practice, 9 the Lucia decision itself—to
the extent it says anything about implicit preclusion—
tends to reaffirm the Supreme Court’s holdings in
Thunder Basin and Elgin that eventual review in an
appellate court is meaningful review.
Next, in McNary, a group of undocumented aliens
filed an action in district court asserting that the
Immigration and Naturalization Service had
committed a pattern and practice of constitutional
violations
when
administering
a
particular
immigration benefit program. 498 U.S. at 483-84. The
question presented in McNary was whether section
The NCLA, which “now represents Ray Lucia,” argues that
his “odyssey belies blithe statements that eventual, possible
appellate review is ‘meaningful review’ for [a claim alleging] a
defect in the tribunal itself.” (Doc. 32-2 at 14.) Likewise, Axon’s
counsel stressed during oral argument that a years-long
administrative and appellate process that might result in a redo
of the entire process couldn’t possibly amount to meaningful
review. Although the Court doesn’t discount these sentiments,
they find no support in Lucia, Elgin, and Thunder Basin, which
the Court must follow.
9

App-75
210(e) of the Immigration and Nationality Act (“INA”),
“which
bars
judicial
review
of
individual
determinations except in deportation proceedings,
also forecloses this general challenge to the INS’[s]
unconstitutional practices.” Id. at 491. The Supreme
Court concluded the district court possessed
jurisdiction over the pattern-and-practice lawsuit
because: (1) the plain language of section 210(e) only
barred jurisdiction over lawsuits challenging “the
denial of an individual application” and thus did not,
by implication, encompass “general collateral
challenges to unconstitutional practices and policies
used by the agency in processing applications” (id. at
491-92): (2) the statute also contained a provision
requiring appellate courts to limit their review to the
administrative record, yet the type of administrative
record created in an individual case 10 would be
meaningless in a pattern-and-practice case (id. at 49294); and (3) Congress could have mirrored “more
expansive” language from other statutes, so its choice
to use narrower language in section 210(e) was
suggestive of an intent to allow the plaintiffs’ claim to
proceed (id. at 494). Additionally, the Court noted:
[B]ecause there is no provision for direct
judicial review of the denial [of the requested
benefit] … unless the alien is later
apprehended and deportation proceedings
are initiated, most aliens denied [the
10 Specifically, that record would “consist[] solely of a completed
application form, a report of medical examination, any
documents or affidavits that evidence an applicant’s agricultural
employment and residence, and notes, if any, from [a
Legalization Office] interview.” Id. at 493.

App-76
requested benefit] can ensure themselves
review in courts of appeals only if they
voluntarily
surrender
themselves
for
deportation. Quite obviously, that price is
tantamount to a complete denial of judicial
review for most undocumented aliens.
Id. at 496-97.
There are at least four reasons why this case is
different from, and not controlled by, McNary. First,
because McNary addressed whether an affirmative
jurisdiction-stripping statute encompassed a certain
type of claim, the Court performed a textual analysis
that turned on the wording of the statutory provision
in question. 11 Here, the question isn’t whether Axon’s
claims fall within some provision of the FTC Act that
attempts to strip district courts of jurisdiction over
certain categories of claims. Instead, the question is
whether the existence of the regulatory scheme itself
evinces an implicit judgment by Congress that district
court jurisdiction should be precluded. Second, and in
a related vein, McNary was decided before Thunder
Basin, Free Enterprise Fund, and Elgin, which are the
key cases addressing the topic of implicit preclusion.
To the extent there is any conflict between McNary
and the trilogy, the later-decided cases control. Third,
the appellate-review provisions of section 210(e) of the
INA and the FTC Act are materially different—the
former requires appellate courts to limit their review
11 The provision at issue in McNary, codified at 8 U.S.C. §
1160(e)(1), provides: “There shall be no administrative or judicial
review of a determination respecting an application for
adjustment of status under this section except in accordance with
this subsection.”

App-77
to the administrative record while the latter
specifically allows appellate courts to remand for
additional fact-finding. 12 Cf. Elgin, 567 U.S. at 21 n.11
(distinguishing McNary because it involved “a
statutory review scheme that provided no opportunity
for the plaintiffs to develop a factual record relevant
to
their
constitutional
claims
before
the
administrative body and then restricted judicial
review to the administrative record created in the first
instance,” whereas “the CSRA review process is not
similarly limited”). Fourth, and finally, an adverse
jurisdictional ruling in McNary would have required
the plaintiffs to voluntarily surrender for deportation
in order to pursue their claims. Axon, in contrast, does
not have to “bet the farm” to obtain review—it can
raise its constitutional claims during the existing
administrative proceeding. See, e.g., Jarkesy, 803 F.3d
at 20-21 (distinguishing McNary on this ground);
Bebo, 799 F.3d at 775 n.3 (same).

Compare 8 U.S.C. § 1160(e)(3)(B) (“Such judicial review shall
be based solely upon the administrative record established at the
time of the review by the appellate authority and the findings of
fact and determinations contained in such record shall be
conclusive unless the applicant can establish abuse of discretion
or that the findings are directly contrary to clear and convincing
facts contained in the record considered as a whole.”) with 15
U.S.C. § 45(c) (“If either party shall apply to the court for leave
to adduce additional evidence, and shall show to the satisfaction
of the court that such additional evidence is material and that
there were reasonable grounds for the failure to adduce such
evidence in the proceeding before the Commission, the court may
order such additional evidence to be taken before the Commission
and to be adduced upon the hearing in such manner and upon
such terms and conditions as to the court may seem proper.”).
12

App-78
Last, in Shinseki, the plaintiffs brought a class
action against the Department of Veterans Affairs
(“VA”), arguing that “the VA’s handing of mental
health care and service-related disability claims
deprives [the plaintiffs] of property in violation of the
Due Process Clause of the Constitution and violates
the VA’s statutory duty to provide timely medical care
and disability benefits.” 678 F.3d at 1017. The Ninth
Circuit addressed whether “the Veterans’ Judicial
Review Act [‘VJRA’] … deprives us of jurisdiction over
these claims.” Id. at 1019. The court explained:
[T]he VJRA supplies two independent means
by which we are disqualified from hearing
veterans’ suits concerning their benefits.
First, Congress has expressly disqualified us
from hearing cases related to VA benefits in
[38 U.S.C.] §511(a) … and second, Congress
has conferred exclusive jurisdiction over such
claims to the Veterans Court and the Federal
Circuit.
Id. at 1022-23. With this backdrop in mind, the court
concluded the district court lacked jurisdiction over
the plaintiffs’ first two claims, which related to mental
health care (id. at 1026-28) and disability benefit
claims (id. at 1028-32). However, with respect to the
plaintiffs’ final claim—a constitutional challenge to
the procedures employed by VA regional offices—the
court concluded it fell outside the VJRA’s jurisdictionstripping provision because (1) as a textual matter,
section 511(a) only precludes judicial review of
“‘decisions’ affecting the provision of benefits to any
individual claimants,” yet the plaintiffs “do[] not
challenge decisions at all. A consideration of the

App-79
constitutionality of the procedures in place, which
frame the system by which a veteran presents his
claims to the VA, is different than a consideration of
the decisions that emanate through the course of the
presentation of those claims”; and (2) “the VJRA does
not provide a mechanism by which the organizational
plaintiffs here might challenge the absence of systemwide procedures, which they contend are necessary to
afford due process. … Because [the plaintiffs] would be
unable to assert [their] claim in the review scheme
established by the VJRA, that scheme does not
operate to divest us of jurisdiction.” Id. at 1033-35
(internal citation omitted).
Shinseki is distinguishable for many of the same
reasons as McNary. It addressed whether an
affirmative jurisdiction-stripping statute should, as a
textual matter, be construed to encompass a
particular type of claim and emphasized that an
adverse ruling would effectively preclude the plaintiffs
from ever raising their claim. Here, the question is
whether the FTC Act evinces an implied intent to
preclude district court jurisdiction and an adverse
ruling wouldn’t preclude Axon from raising its
claims—it has already done so in the pending
administrative proceeding and can renew them, if
necessary, when seeking review in appellate court.
2.

Wholly Collateral

The next consideration is whether the claim is
“wholly collateral” to the statute’s review provisions.
Unfortunately, “the reference point for determining
whether a claim is ‘wholly collateral’ is not free from
ambiguity.” Bennett, 844 F.3d at 186. “Neither Elgin

App-80
nor Free Enterprise Fund clearly defines the meaning
of ‘wholly collateral.’” Bebo, 799 F.3d at 773.
Since Elgin, courts seeking to assess whether a
claim is “wholly collateral” have taken two
approaches. Bebo, 799 F.3d at 773-74. First, some
courts have looked to “the relationship between the
merits of the constitutional claim and the factual
allegations against the plaintiff.” Id. at 773. These
courts have taken their cue from Free Enterprise
Fund, which concluded that the accounting firm’s
claims were “wholly collateral” because they were
unrelated to “any … orders or rules from which review
might be sought.” 561 U.S. at 489-491. As a result,
these courts have concluded that a claim is wholly
collateral if the basis for the claim would exist
regardless of the merits decision of the agency. Hill v.
SEC, 114 F. Supp. 3d 1297, 1309 (N.D. Ga. 2015)
(“What occurs at the administrative proceeding and
the SEC’s conduct there is irrelevant to this
proceeding which seeks to invalidate the entire
statutory scheme.”); Duka v. SEC, 103 F. Supp. 3d
382, 391 (S.D.N.Y. 2015) (“Similarly, [plaintiff]
contends that her Administrative Proceeding may not
constitutionally take place, and she does not attack
any order that may be issued in her administrative
proceeding relating to the outcome of the SEC action.”)
(internal quotations omitted); Gupta v. SEC, 796 F.
Supp. 2d 503, 513 (S.D.N.Y. 2011) (“These
allegations … would state a claim even if Gupta were
entirely guilty of the charges made against him in the
OIP.”). Notably, these courts have either been directly
overruled or had their holdings called into serious
doubt. Hill, 825 F.3d at 1252; Tilton, 824 F.3d at 291.

App-81
Second, other courts have looked to Elgin when
evaluating the meaning of “wholly collateral.” Bebo,
799 F.3d at 774. These courts seize on Elgin’s
conclusion that the claims in that case were not wholly
collateral because they were “the vehicle by which
[plaintiffs] seek to reverse the removal decision, to
return to federal employment, and to receive
compensation.” 567 U.S. at 22. The Courts of Appeals
that have chosen between these two approaches have
unanimously favored the second approach. Bennett,
844 F.3d at 187 (“However, we think the second
reading is more faithful to the more recent Supreme
Court precedent. …”); Tilton, 824 F.3d at 288 (“The
appellants’ Appointments Clause claim arose directly
from that enforcement action and serves as an
affirmative defense within the proceeding.”); Jarkesy,
803 F.3d at 23 (“Here, [plaintiff’s] constitutional and
APA claims do not arise ‘outside’ the SEC
administrative enforcement scheme—they arise from
actions the Commission took in the course of that
scheme. And they are the ‘vehicle by which’ Jarkesy
seeks to prevail in his administrative proceeding.”)
(quoting Elgin, 567 U.S. at 22).
These approaches can be viewed as two sides of
the same inquiry. Free Enterprise Fund’s “wholly
collateral” finding turned on the fact that the
accounting firm’s claims were “collateral to
any … orders or rules from which review might be
sought.” 561 U.S. at 490. In other words, the fact the
accounting firm was seeking to challenge agency
action beyond the scope of what was reviewable under
the statutory scheme is what rendered its claims
collateral. Id. Elgin focused on whether the claims at
issue were “the vehicle by which [plaintiffs] seek to

App-82
reverse” adverse action. 567 U.S. at 22. That is, both
cases looked to whether there was a way for the
plaintiff to challenge the agency conduct at issue. No
such vehicle existed in Free Enterprise Fund—the
claims which the accounting firm sought to bring had
no path to judicial review. In contrast, the Elgin
plaintiffs did have a path to judicial review and they
could have raised their constitutional claims in the
course of that path.
The best way to harmonize Free Enterprise Fund
and Elgin is to conclude that the “wholly collateral”
consideration turns on whether a vehicle exists (or
could exist) for the plaintiff ultimately to receive
judicial review of its constitutional claim. If no vehicle
exists, the claim is “wholly collateral” to the review
scheme, and this consideration would weigh in favor
of a district court exercising jurisdiction. This does
“reduce[] the factor’s independent significance,” but it
is “more faithful to the more recent Supreme Court
precedent” and harmonizes seemingly discordant case
law. Bennett, 844 F.3d at 187. See also Tilton, 824
F.3d at 288; Jarkesy, 803 F.3d at 27 (“[T]he possibility
that [an agency] order in [plaintiff’s] favor might moot
some or all of his challenges does not make those
challenges ‘collateral’ and thus appropriate for review
outside the administrative scheme. … [T]hat
possibility [is] a feature … not a bug.”) (quotation
omitted).
Given this backdrop, there is no merit to Axon’s
argument that its constitutional claims are “wholly
collateral” to the issues to be adjudicated during the
administrative proceeding because its “claims (just
like those in Free Enterprise Fund) go to the agency’s

App-83
constitutional authority” and “do not ‘arise[] out of’ an
enforcement proceeding.” (Doc. 21 at 9-10.) Because
Axon can assert (and already has asserted) its
constitutional claims during the administrative
proceeding, and because Axon retains the ability to
seek further review of those claims in a federal
appellate court, those claims are not “wholly
collateral” to the FTC Act’s review provisions. This
logic also disposes of Axon’s contention, raised during
oral argument, that its constitutional challenge to the
clearance process is “wholly collateral” because the
clearance process isn’t even enshrined in the FTC
Act—Axon’s ability to raise this challenge as part of
the enforcement proceeding shows it isn’t “wholly
collateral” under Elgin.
Finally, one additional clarification is necessary
with respect to the concept of “wholly collateral”
claims. Axon’s briefing can be interpreted as
suggesting its claims are wholly collateral because
they are constitutional in nature. (Doc. 21 at 8-9.) But
in Elgin, the Supreme Court expressly rejected “a
jurisdictional rule based on the nature of an
employee’s constitutional claim.” 567 U.S. at 15.
Creating such a rule would “deprive the aggrieved
employee, the [agency], and the district court of clear
guidance about the proper forum for the employee’s
claims at the outset of the case” because the line
between constitutional challenges to statutes and
other types of constitutional challenges was “hazy at
best.” Id. Likewise, Elgin rejected a rule that would
have reserved “facial constitutional challenges to
statutes” for district courts. Id. At bottom, “exclusivity
does not turn on the constitutional nature of” a claim.
Id. Thunder Basin reached a similar conclusion,

App-84
holding that because a due process challenge “can be
meaningfully addressed in the Court of Appeals,” the
mere fact the plaintiff had asserted a constitutional
challenge was insufficient to establish district court
jurisdiction. 510 U.S. at 215.
Thunder Basin and Elgin, in short, foreclose the
possibility that the Court has jurisdiction over Axon’s
due process and equal protection claims simply
because they are constitutional in nature—Thunder
Basin precluded jurisdiction over a due process claim,
510 U.S. at 215, and Elgin precluded jurisdiction over
an equal protection claim, 567 U.S. at 7, 16. See also
Bebo, 799 F.3d at 768 (district court lacked jurisdiction
even though plaintiff sought to challenge a statute as
“facially unconstitutional under the Fifth Amendment
because it provides the SEC ‘unguided’ authority to
choose which respondents will and which will not
receive the procedural protections of a federal district
court, in violation of equal protection and due process
guarantees”).
The potential wrinkle is that Axon is also
asserting an Article II claim, which was not raised in
Thunder Basin or Elgin but was the claim at issue in
Free Enterprise Fund. Despite that wrinkle, the logic
of Elgin extends to preclude jurisdiction over that
claim here. Elgin was concerned with a lack of clarity
when it came to deciding whether jurisdiction was
precluded and rejected “hazy” line drawing. 567 U.S.
at 15. For example:
[P]etitioners contend that facial and asapplied constitutional challenges to statutes
may be brought in district court, while other
constitutional challenges must be heard by

App-85
the [agency]. But, as we explain below, that
line is hazy at best and incoherent at worst.
The dissent’s approach fares no better. The
dissent carves out for district court
adjudication only facial constitutional
challenges to statutes, but we have previously
stated that “the distinction between facial
and as-applied challenges is not so well
defined that it has some automatic effect or
that it must always control the pleadings and
disposition in every case involving a
constitutional challenge.
Id. (citation omitted). Axon’s Article II claim, at
bottom, attacks the for-cause removal protection for
FTC commissioners (15 U.S.C. §41) and ALJs (5
U.S.C. §7521). (Doc. 15 at 12-14.) In other words, Axon
brings a facial constitutional challenge to a statute.
Elgin makes clear that the facial nature of the claim
is not, alone, enough to establish district court
jurisdiction. The weight of authority from outside the
Ninth Circuit supports this conclusion. Hill, 825 F.3d
at 1246 (“Whether an injury has constitutional
dimensions is not the linchpin in determining its
capacity for meaningful judicial review.”); Jarkesy,
803 F.3d at 403 (“In any case, assuming arguendo that
Jarkesy put forth a non-delegation doctrine challenge,
he is wrong to assign it talismanic significance. He
seems to assume that whenever a respondent in an
administrative proceeding attacks a statute on its
face, a district court has jurisdiction to hear the
challenge, whereas the agency does not. That is
mistaken.”).
3.

Agency Expertise

App-86
“The final consideration within the Thunder
Basin framework” is whether Axon’s claims “fall[]
outside the [FTC’s] expertise.” Tilton, 824 F.3d at 289.
See also Elgin, 567 U.S. at 22. This factor looks to
“whether agency expertise could be brought to bear on
the questions presented.” Hill, 825 F.3d at 1251
(internal quotation marks and alterations omitted).
Like the other considerations, this consideration
requires a full understanding of the Thunder Basin
trilogy.
Free Enterprise Fund concluded that agency
expertise played no role because the accounting firm’s
constitutional claims were not “fact-bound inquiries”
and its statutory claims did “not require ‘technical
considerations of [agency] policy.” 561 U.S. at 419
(citing Johnson v. Robison, 415 U.S. 361, 373 (1974)).
In contrast, Elgin rejected the argument that the
plaintiffs’ constitutional arguments were outside the
statutory scope of review because that argument
“overlook[ed] the many threshold questions that may
accompany a constitutional claim and to which the
[agency] can apply its expertise.” 567 U.S. at 22.
Resolution of substantive arguments that did fall
under the agency’s expertise in favor of a plaintiff
could “avoid the need to reach his constitutional
claims.” Id. In other words, the ability to “fully dispose
of the case” before reaching the constitutional claims
was an example of an agency’s expertise being brought
to bear. Id.
Again, Free Enterprise Fund and Elgin can be
difficult to harmonize. The Courts of Appeals that
have recognized this tension have generally opted to
apply Elgin’s approach to the agency expertise

App-87
consideration. Bennett, 844 F.3d at 187-88; Hill, 825
F.3d at 1250-51; Tilton, 824 F.3d at 289-290; Jarkesy,
803 F.3d at 28-29; Bebo, 799 F.3d at 772-73. Those
courts reasoned that Elgin was the latest and more
comprehensive assessment of the agency expertise
factor, so its interpretation controlled. In following
Elgin, those courts concluded that “[agency] expertise
can otherwise be brought to bear” and that the
plaintiffs’ claims, including structural Article II
claims, were subject to the statutory review scheme.
That said, Free Enterprise Fund and Elgin must
be read as complementary, and thus the question isn’t
which standard controls, but where Axon’s claims fall
in the spectrum they create. The apparent conflict
arises because Elgin, although its rule is clear, was not
dealing with the sort of structural challenge that was
raised in Free Enterprise Fund. If Elgin’s rule were
applied as some courts have described it, agency
expertise could be brought to bear in any case, which
is an outcome that would conflict with Free Enterprise
Fund and Thunder Basin. On the other hand, carving
out a “Free Enterprise Fund exception” based on the
content of a specific claim would run counter to Elgin’s
reasoning, which is the Supreme Court’s most recent
formulation of the agency expertise consideration.
The key to harmonizing Free Enterprise Fund and
Elgin is that the agency expertise analysis in Free
Enterprise Fund was driven by the fact that, for the
accounting firm to obtain judicial review through the
statutory scheme, it would have had to force the issue
by willfully and intentionally violating a rule and then
raising the only defense possible—that the agency was
unconstitutional. Only then would the accounting

App-88
firm’s claims be before the SEC and subject to judicial
review. 561 U.S. at 491. In contrast, in Elgin, the
agency had several avenues through which it could
obviate the need to reach a constitutional question.
567 U.S. at 22.
The same is true here. Axon maintains it has done
nothing wrong. The FTC, in applying its own
expertise, may agree. Thus, as in Elgin, there may be
no need for a federal appellate court to reach Axon’s
constitutional claims. Were Axon forced to forego any
defense other than its constitutional claims, then, and
only then, would Axon be in the same position as the
plaintiff in Free Enterprise Fund. Here, though, Axon
has substantive defenses that may obviate the need to
reach the constitutional question. It has not willfully
broken a rule in order to vindicate its constitutional
claims, nor does it need to do so. Thus, matters remain
that would benefit from the FTC’s expertise.
Axon argues the FTC cannot bring its expertise to
bear because there is no way Axon can win—the FTC
is so hopelessly biased that any litigant is doomed to
lose. (Doc. 21 at 10.) Yet even if the FTC incorrectly
rules against Axon during the administrative
proceeding, “there are precious few cases involving
interpretation of statutes authorizing agency action in
which [a court’s] review is not aided by the agency’s
statutory construction.” Mitchell v. Christopher, 996
F.3d 375, 379 (D.C. Cir. 1993). Additionally, the FTC’s
alleged win rate is something of a red herring—
nothing in the Thunder Basin trilogy suggests that a
court conducting a jurisdictional-preclusion analysis
must begin by gathering statistics concerning the
particular agency’s “win rate” and then use those

App-89
statistics as a metric for evaluating whether the
review being provided is truly meaningful. 13
Accordingly, IT IS ORDERED that:
(1) Axon’s complaint (Doc. 1) is dismissed
without prejudice due to a lack of subject matter
jurisdiction.
(2) Axon’s motion for preliminary injunction (Doc.
15) is denied as moot.
(3) The Clerk of the Court shall enter judgment
accordingly and terminate this action.

Dated this 8th day of April, 2020.
[handwritten: signature]
Dominic W. Lanza
United States District Judge
In addition to lacking any support in the case law, this
approach would also raise practical problems. For example,
although Axon asserts that the FTC has a 100% win rate, some
law review articles suggest that “FTC opinions that were
appealed by losing respondents were reversed 20 percent of the
time compared to a 5-percent reversal rate for such opinions
appealed from district courts [in cases brought by the DOJ’s
Antitrust Division].” Terry Calvani & Angela M. Diveley, The
FTC at 100: A Modest Proposal for Change, 21 GEO. MASON L.
REV. 1169, 1181 (2014). During oral argument, Axon argued this
law review article is misleading because “it includes cases that
go all the way back to 1976” and there haven’t been any appellate
reversals of the FTC in recent years. It is unclear how courts
would go about choosing which temporal cutoffs to employ if “win
rate” statistics were truly part of the analysis.
13

App-90
Appendix D
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. art. II, § 1, cl. 1
The executive Power shall be vested in a
President of the United States of America.

U.S. Const. art. II, § 2, cl. 2

He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose
Appointments are not herein otherwise provided for,
and which shall be established by Law: but the
Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the President
alone, in the Courts of Law, or in the Heads of
Departments.

28 U.S.C. § 1331
The district courts shall have original jurisdiction
of all civil actions arising under the Constitution,
laws, or treaties of the United States.

App-91
5 U.S.C. § 1202
(a) The term of office of each member of the Merit
Systems Protection Board is 7 years.
(b) A member appointed to fill a vacancy occurring
before the end of a term of office of the member's
predecessor serves for the remainder of that term. Any
appointment to fill a vacancy is subject to the
requirements of section 1201. Any new member
serving only a portion of a seven-year term in office
may continue to serve until a successor is appointed
and has qualified, except that such member may not
continue to serve for more than one year after the date
on which the term of the member would otherwise
expire, unless reappointed.
(c) Any member appointed for a 7-year term may
not be reappointed to any following term but may
continue to serve beyond the expiration of the term
until a successor is appointed and has qualified, except
that such member may not continue to serve for more
than one year after the date on which the term of the
member would otherwise expire under this section.
(d) Any member may be removed by the President
only for inefficiency, neglect of duty, or malfeasance in
office.

App-92
5 U.S.C. § 7521
(a) An action may be taken against an
administrative law judge appointed under section
3105 of this title by the agency in which the
administrative law judge is employed only for good
cause established and determined by the Merit
Systems Protection Board on the record after
opportunity for hearing before the Board.
(b) The actions covered by this section are-(1) a removal;
(2) a suspension;
(3) a reduction in grade;
(4) a reduction in pay; and
(5) a furlough of 30 days or less;
but do not include-(A) a suspension or removal under section
7532 of this title;
(B) a reduction-in-force action under
section 3502 of this title; or
(C) any action initiated under section
1215 of this title.

App-93
15 U.S.C. § 41
A commission is created and established, to be
known as the Federal Trade Commission (hereinafter
referred to as the Commission), which shall be
composed of five Commissioners, who shall be
appointed by the President, by and with the advice
and consent of the Senate. Not more than three of the
Commissioners shall be members of the same political
party. The first Commissioners appointed shall
continue in office for terms of three, four, five, six, and
seven years, respectively, from September 26, 1914,
the term of each to be designated by the President, but
their successors shall be appointed for terms of seven
years, except that any person chosen to fill a vacancy
shall be appointed only for the unexpired term of the
Commissioner whom he shall succeed: Provided,
however, That upon the expiration of his term of office
a Commissioner shall continue to serve until his
successor shall have been appointed and shall have
qualified. The President shall choose a chairman from
the Commission's membership. No Commissioner
shall engage in any other business, vocation, or
employment. Any Commissioner may be removed by
the President for inefficiency, neglect of duty, or
malfeasance in office. A vacancy in the Commission
shall not impair the right of the remaining
Commissioners to exercise all the powers of the
Commission.
The Commission shall have an official seal, which
shall be judicially noticed.

App-94
15 U.S.C. § 45
(a) Declaration of unlawfulness; power to prohibit
unfair practices; inapplicability to foreign trade
(1) Unfair methods of competition in or
affecting commerce, and unfair or deceptive acts
or practices in or affecting commerce, are hereby
declared unlawful.
(2) The Commission is hereby empowered
and directed to prevent persons, partnerships, or
corporations, except banks, savings and loan
institutions described in section 57a(f)(3) of this
title, Federal credit unions described in section
57a(f)(4) of this title, common carriers subject to
the Acts to regulate commerce, air carriers and
foreign air carriers subject to part A of subtitle VII
of Title 49, and persons, partnerships, or
corporations insofar as they are subject to the
Packers and Stockyards Act, 1921, as amended,
except as provided in section 406(b) of said Act,
from using unfair methods of competition in or
affecting commerce and unfair or deceptive acts or
practices in or affecting commerce.
(3) This subsection shall not apply to unfair
methods of competition involving commerce with
foreign nations (other than import commerce)
unless-(A) such methods of competition have a
direct,
substantial,
and
reasonably
foreseeable effect-(i) on commerce which is not
commerce with foreign nations, or on
import commerce with foreign nations; or

App-95
(ii) on export commerce with foreign
nations, of a person engaged in such
commerce in the United States; and
(B) such effect gives rise to a claim under
the provisions of this subsection, other than
this paragraph.
If this subsection applies to such methods
of competition only because of the operation
of subparagraph (A)(ii), this subsection shall
apply to such conduct only for injury to export
business in the United States.
(4)
(A) For purposes of subsection (a), the
term “unfair or deceptive acts or practices”
includes such acts or practices involving
foreign commerce that-(i) cause or are likely to cause
reasonably foreseeable injury within the
United States; or
(ii) involve
material
conduct
occurring within the United States.
(B) All remedies available to the
Commission with respect to unfair and
deceptive acts or practices shall be available
for acts and practices described in this
paragraph, including restitution to domestic
or foreign victims.
(b) Proceeding by Commission; modifying and
setting aside orders
Whenever the Commission shall have reason to
believe that any such person, partnership, or

App-96
corporation has been or is using any unfair method of
competition or unfair or deceptive act or practice in or
affecting commerce, and if it shall appear to the
Commission that a proceeding by it in respect thereof
would be to the interest of the public, it shall issue and
serve upon such person, partnership, or corporation a
complaint stating its charges in that respect and
containing a notice of a hearing upon a day and at a
place therein fixed at least thirty days after the service
of said complaint. The person, partnership, or
corporation so complained of shall have the right to
appear at the place and time so fixed and show cause
why an order should not be entered by the Commission
requiring such person, partnership, or corporation to
cease and desist from the violation of the law so
charged in said complaint. Any person, partnership, or
corporation may make application, and upon good
cause shown may be allowed by the Commission to
intervene and appear in said proceeding by counsel or
in person. The testimony in any such proceeding shall
be reduced to writing and filed in the office of the
Commission. If upon such hearing the Commission
shall be of the opinion that the method of competition
or the act or practice in question is prohibited by this
subchapter, it shall make a report in writing in which
it shall state its findings as to the facts and shall issue
and cause to be served on such person, partnership, or
corporation an order requiring such person,
partnership, or corporation to cease and desist from
using such method of competition or such act or
practice. Until the expiration of the time allowed for
filing a petition for review, if no such petition has been
duly filed within such time, or, if a petition for review
has been filed within such time then until the record

App-97
in the proceeding has been filed in a court of appeals
of the United States, as hereinafter provided, the
Commission may at any time, upon such notice and in
such manner as it shall deem proper, modify or set
aside, in whole or in part, any report or any order
made or issued by it under this section. After the
expiration of the time allowed for filing a petition for
review, if no such petition has been duly filed within
such time, the Commission may at any time, after
notice and opportunity for hearing, reopen and alter,
modify, or set aside, in whole or in part, any report or
order made or issued by it under this section,
whenever in the opinion of the Commission conditions
of fact or of law have so changed as to require such
action or if the public interest shall so require, except
that (1) the said person, partnership, or corporation
may, within sixty days after service upon him or it of
said report or order entered after such a reopening,
obtain a review thereof in the appropriate court of
appeals of the United States, in the manner provided
in subsection (c) of this section; and (2) in the case of
an order, the Commission shall reopen any such order
to consider whether such order (including any
affirmative relief provision contained in such order)
should be altered, modified, or set aside, in whole or in
part, if the person, partnership, or corporation
involved files a request with the Commission which
makes a satisfactory showing that changed conditions
of law or fact require such order to be altered,
modified, or set aside, in whole or in part. The
Commission shall determine whether to alter, modify,
or set aside any order of the Commission in response
to a request made by a person, partnership, or

App-98
corporation under paragraph (2) not later than 120
days after the date of the filing of such request.
(c) Review of order; rehearing
Any person, partnership, or corporation required
by an order of the Commission to cease and desist from
using any method of competition or act or practice may
obtain a review of such order in the court of appeals of
the United States, within any circuit where the
method of competition or the act or practice in
question was used or where such person, partnership,
or corporation resides or carries on business, by filing
in the court, within sixty days from the date of the
service of such order, a written petition praying that
the order of the Commission be set aside. A copy of
such petition shall be forthwith transmitted by the
clerk of the court to the Commission, and thereupon
the Commission shall file in the court the record in the
proceeding, as provided in section 2112 of Title 28.
Upon such filing of the petition the court shall have
jurisdiction of the proceeding and of the question
determined therein concurrently with the Commission
until the filing of the record and shall have power to
make and enter a decree affirming, modifying, or
setting aside the order of the Commission, and
enforcing the same to the extent that such order is
affirmed and to issue such writs as are ancillary to its
jurisdiction or are necessary in its judgement to
prevent injury to the public or to competitors pendente
lite. The findings of the Commission as to the facts, if
supported by evidence, shall be conclusive. To the
extent that the order of the Commission is affirmed,
the court shall thereupon issue its own order
commanding obedience to the terms of such order of

App-99
the Commission. If either party shall apply to the
court for leave to adduce additional evidence, and
shall show to the satisfaction of the court that such
additional evidence is material and that there were
reasonable grounds for the failure to adduce such
evidence in the proceeding before the Commission, the
court may order such additional evidence to be taken
before the Commission and to be adduced upon the
hearing in such manner and upon such terms and
conditions as to the court may seem proper. The
Commission may modify its findings as to the facts, or
make new findings, by reason of the additional
evidence so taken, and it shall file such modified or
new findings, which, if supported by evidence, shall be
conclusive, and its recommendation, if any, for the
modification or setting aside of its original order, with
the return of such additional evidence. The judgment
and decree of the court shall be final, except that the
same shall be subject to review by the Supreme Court
upon certiorari, as provided in section 1254 of Title 28.
(d) Jurisdiction of court
Upon the filing of the record with it the
jurisdiction of the court of appeals of the United States
to affirm, enforce, modify, or set aside orders of the
Commission shall be exclusive.
(e) Exemption from liability
No order of the Commission or judgement of court
to enforce the same shall in anywise relieve or absolve
any person, partnership, or corporation from any
liability under the Antitrust Acts.
(f) Service of complaints, orders and other
processes; return

App-100
Complaints, orders, and other processes of the
Commission under this section may be served by
anyone duly authorized by the Commission, either (a)
by delivering a copy thereof to the person to be served,
or to a member of the partnership to be served, or the
president, secretary, or other executive officer or a
director of the corporation to be served; or (b) by
leaving a copy thereof at the residence or the principal
office or place of business of such person, partnership,
or corporation; or (c) by mailing a copy thereof by
registered mail or by certified mail addressed to such
person, partnership, or corporation at his or its
residence or principal office or place of business. The
verified return by the person so serving said
complaint, order, or other process setting forth the
manner of said service shall be proof of the same, and
the return post office receipt for said complaint, order,
or other process mailed by registered mail or by
certified mail as aforesaid shall be proof of the service
of the same.
(g) Finality of order
An order of the Commission to cease and desist
shall become final-(1) Upon the expiration of the time allowed
for filing a petition for review, if no such petition
has been duly filed within such time; but the
Commission may thereafter modify or set aside its
order to the extent provided in the last sentence
of subsection (b).
(2) Except as to any order provision subject to
paragraph (4), upon the sixtieth day after such
order is served, if a petition for review has been
duly filed; except that any such order may be

App-101
stayed, in whole or in part and subject to such
conditions as may be appropriate, by-(A) the Commission;
(B) an appropriate court of appeals of the
United States, if (i) a petition for review of
such order is pending in such court, and (ii)
an application for such a stay was previously
submitted to the Commission and the
Commission, within the 30-day period
beginning on the date the application was
received by the Commission, either denied
the application or did not grant or deny the
application; or
(C) the Supreme Court, if an applicable
petition for certiorari is pending.
(3) For purposes of subsection (m)(1)(B) and
of section 57b(a)(2) of this title, if a petition for
review of the order of the Commission has been
filed-(A) upon the expiration of the time
allowed for filing a petition for certiorari, if
the order of the Commission has been
affirmed or the petition for review has been
dismissed by the court of appeals and no
petition for certiorari has been duly filed;
(B) upon the denial of a petition for
certiorari, if the order of the Commission has
been affirmed or the petition for review has
been dismissed by the court of appeals; or
(C) upon the expiration of 30 days from
the date of issuance of a mandate of the
Supreme Court directing that the order of the

App-102
Commission be affirmed or the petition for
review be dismissed.
(4) In the case of an order provision requiring
a person, partnership, or corporation to divest
itself of stock, other share capital, or assets, if a
petition for review of such order of the
Commission has been filed-(A) upon the expiration of the time
allowed for filing a petition for certiorari, if
the order of the Commission has been
affirmed or the petition for review has been
dismissed by the court of appeals and no
petition for certiorari has been duly filed;
(B) upon the denial of a petition for
certiorari, if the order of the Commission has
been affirmed or the petition for review has
been dismissed by the court of appeals; or
(C) upon the expiration of 30 days from
the date of issuance of a mandate of the
Supreme Court directing that the order of the
Commission be affirmed or the petition for
review be dismissed.
(h) Modification or setting aside of order by
Supreme Court
If the Supreme Court directs that the order of the
Commission be modified or set aside, the order of the
Commission rendered in accordance with the mandate
of the Supreme Court shall become final upon the
expiration of thirty days from the time it was
rendered, unless within such thirty days either party
has instituted proceedings to have such order
corrected to accord with the mandate, in which event

App-103
the order of the Commission shall become final when
so corrected.
(i) Modification or setting aside of order by Court
of Appeals
If the order of the Commission is modified or set
aside by the court of appeals, and if (1) the time
allowed for filing a petition for certiorari has expired
and no such petition has been duly filed, or (2) the
petition for certiorari has been denied, or (3) the
decision of the court has been affirmed by the Supreme
Court, then the order of the Commission rendered in
accordance with the mandate of the court of appeals
shall become final on the expiration of thirty days from
the time such order of the Commission was rendered,
unless within such thirty days either party has
instituted proceedings to have such order corrected so
that it will accord with the mandate, in which event
the order of the Commission shall become final when
so corrected.
(j) Rehearing upon order or remand
If the Supreme Court orders a rehearing; or if the
case is remanded by the court of appeals to the
Commission for a rehearing, and if (1) the time
allowed for filing a petition for certiorari has expired,
and no such petition has been duly filed, or (2) the
petition for certiorari has been denied, or (3) the
decision of the court has been affirmed by the Supreme
Court, then the order of the Commission rendered
upon such rehearing shall become final in the same
manner as though no prior order of the Commission
had been rendered.
(k) “Mandate” defined

App-104
As used in this section the term “mandate”, in
case a mandate has been recalled prior to the
expiration of thirty days from the date of issuance
thereof, means the final mandate.
(l) Penalty for violation of order; injunctions and
other appropriate equitable relief
Any person, partnership, or corporation who
violates an order of the Commission after it has
become final, and while such order is in effect, shall
forfeit and pay to the United States a civil penalty of
not more than $10,000 for each violation, which shall
accrue to the United States and may be recovered in a
civil action brought by the Attorney General of the
United States. Each separate violation of such an
order shall be a separate offense, except that in a case
of a violation through continuing failure to obey or
neglect to obey a final order of the Commission, each
day of continuance of such failure or neglect shall be
deemed a separate offense. In such actions, the United
States district courts are empowered to grant
mandatory injunctions and such other and further
equitable relief as they deem appropriate in the
enforcement of such final orders of the Commission.
(m) Civil actions for recovery of penalties for
knowing violations of rules and cease and desist
orders respecting unfair or deceptive acts or practices;
jurisdiction; maximum amount of penalties;
continuing violations; de novo determinations;
compromise or settlement procedure
(1)
(A) The Commission may commence a
civil action to recover a civil penalty in a
district court of the United States against any

App-105
person, partnership, or corporation which
violates any rule under this subchapter
respecting unfair or deceptive acts or
practices (other than an interpretive rule or a
rule violation of which the Commission has
provided is not an unfair or deceptive act or
practice in violation of subsection (a)(1)) with
actual knowledge or knowledge fairly implied
on the basis of objective circumstances that
such act is unfair or deceptive and is
prohibited by such rule. In such action, such
person, partnership, or corporation shall be
liable for a civil penalty of not more than
$10,000 for each violation.
(B) If the Commission determines in a
proceeding under subsection (b) that any act
or practice is unfair or deceptive, and issues a
final cease and desist order, other than a
consent order, with respect to such act or
practice, then the Commission may
commence a civil action to obtain a civil
penalty in a district court of the United States
against any person, partnership, or
corporation which engages in such act or
practice-(1) after such cease and desist order
becomes final (whether or not such
person, partnership, or corporation was
subject to such cease and desist order),
and
(2) with actual knowledge that such
act or practice is unfair or deceptive and
is unlawful under subsection (a)(1) of this

App-106
section.
In such action, such person, partnership,
or corporation shall be liable for a civil
penalty of not more than $10,000 for each
violation.
(C) In the case of a violation through
continuing failure to comply with a rule or with
subsection (a)(1), each day of continuance of such
failure shall be treated as a separate violation, for
purposes of subparagraphs (A) and (B). In
determining the amount of such a civil penalty,
the court shall take into account the degree of
culpability, any history of prior such conduct,
ability to pay, effect on ability to continue to do
business, and such other matters as justice may
require.
(2) If the cease and desist order
establishing that the act or practice is unfair
or deceptive was not issued against the
defendant in a civil penalty action under
paragraph (1)(B) the issues of fact in such
action against such defendant shall be tried
de novo. Upon request of any party to such an
action against such defendant, the court shall
also review the determination of law made by
the Commission in the proceeding under
subsection (b) that the act or practice which
was the subject of such proceeding
constituted an unfair or deceptive act or
practice in violation of subsection (a).
(3) The Commission may compromise or
settle any action for a civil penalty if such
compromise or settlement is accompanied by

App-107
a public statement of its reasons and is
approved by the court.
(n) Standard of proof; public policy considerations
The Commission shall have no authority under
this section or section 57a of this title to declare
unlawful an act or practice on the grounds that such
act or practice is unfair unless the act or practice
causes or is likely to cause substantial injury to
consumers which is not reasonably avoidable by
consumers themselves and not outweighed by
countervailing benefits to consumers or to
competition. In determining whether an act or
practice is unfair, the Commission may consider
established public policies as evidence to be considered
with all other evidence. Such public policy
considerations may not serve as a primary basis for
such determination.

